<html>
<title> - ENGINEERING THE CLIMATE: RESEARCH NEEDS AND STRATEGIES FOR INTERNATIONAL COORDINATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        ENGINEERING THE CLIMATE:
                     RESEARCH NEEDS AND STRATEGIES
                     FOR INTERNATIONAL COORDINATION

=======================================================================

                            COMMITTEE PRINT

                                 BY THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              OCTOBER 2010

                               __________

                            Serial No. 111-A

                               __________

 Printed for the use of the Committee on Science and Technology. This 
document has been printed for informational purposes only and does not 
represent either findings or recommendations adopted by this Committee.


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
62-619                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>  


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
FOREWORD

    Climate engineering, also known as geoengineering, can be 
described as the deliberate large-scale modification of the 
earth's climate systems for the purposes of counteracting and 
mitigating climate change. As this subject becomes the focus of 
more serious consideration and scrutiny within the scientific 
and policy communities, it is important to acknowledge that 
climate engineering carries with it not only possible benefits, 
but also an enormous range of uncertainties, ethical and 
political concerns, and the potential for harmful environmental 
and economic side-effects. I believe that reducing greenhouse 
gas emissions should be the first priority of any domestic or 
international climate initiative. Nothing should distract us 
from this priority, and climate engineering must not divert any 
of the resources dedicated to greenhouse gas reductions and 
clean energy development. However, we are facing an unfortunate 
reality. The global climate is already changing and the onset 
of climate change impacts may outpace the world's political, 
technical, and economic capacities to prevent and adapt to 
them. Therefore, policymakers should begin consideration of 
climate engineering research now to better understand which 
technologies or methods, if any, represent viable stopgap 
strategies for managing our changing climate and which pose 
unacceptable risks.

         ``We need the research now to establish whether such 
        approaches can do more good than harm. This research will take 
        time. We cannot wait to ready such systems until an emergency 
        is upon us.''

           --Dr. Ken Caldeira, Geoengineering: Assessing the 
        Implications of Large-Scale Climate Intervention (written 
        hearing testimony) (2009).

    Likewise, the impact of a moratorium on research should be 
carefully weighed against the importance of promoting 
scientific freedom and accountability. Scientific research and 
risk assessment is essential to developing an adequate 
scientific basis on which to justify or prohibit any action 
related to climate change, including climate engineering 
activities. Sound science should be used to support decision 
making at all levels, including rigorous and exhaustive 
examination of both the dangers and the value of individual 
climate engineering strategies. A research moratoria that 
stifles science, especially at this stage in our understanding 
of climate engineering's risks and benefits, is a step in the 
wrong direction and undercuts the importance of scientific 
transparency. The global community is best served by research 
that is both open and accountable. If climate change is indeed 
one of the greatest long-term threats to biological diversity 
and human welfare, then failing to understand all of our 
options is also a threat to biodiversity and human welfare.
    There is no clear consensus as to which types of activities 
fall within the definition of climate engineering. For example, 
most experts on land-based strategies for biological 
sequestration of carbon, such as afforestation, do not identify 
the activities they study as climate engineering. The 
definition of the term also depends somewhat on the context in 
which it is used. For the purpose of developing regulations, 
for instance, the term may apply to a smaller set of higher-
risk strategies than might otherwise be included for the 
purpose of crafting a broad interagency or international 
research initiative. In the interest of simplicity and 
consistency, the criteria used in this report are modeled off 
of the U.K. Royal Society Report, Geoengineering the Climate: 
Science, Governance and Uncertainty.\1\ These criteria are 
inclusive of lower-risk activities such as reflective roofs, 
some types of carbon capture and sequestration, and distributed 
land management strategies, as well as more controversial 
proposals such as ocean fertilization and atmospheric aerosol 
injection.
---------------------------------------------------------------------------
    \1\ John Shepherd et al., Geoengineering the Climate: Science, 
Governance and Uncertainty (The U.K. Royal Society) (2009).
---------------------------------------------------------------------------
    Readers may notice that I use the term ``climate 
engineering'' instead of ``geoengineering'' throughout this 
report. While ``geoengineering'' is the term more commonly used 
to describe this category of activities, I feel that it does 
not accurately or fully convey the scale and intent of these 
proposals, and it may simply be confusing to many stakeholders 
unfamiliar with the subject. Therefore, for the purposes of 
clarity, facilitating public engagement, and acknowledging the 
seriousness of the task at hand, this report will use the term 
``climate engineering'' in lieu of ``geoengineering'' going 
forward.
    This report is informed by an extensive review of proposed 
climate engineering strategies and their potential impacts, 
including a joint inquiry between the U.S. House of 
Representatives Committee on Science and Technology and the 
United Kingdom House of Commons Science and Technology 
Committee (hereafter referred to as the ``U.S. Committee'' and 
the ``U.K. Committee''), three Congressional hearings, review 
of scientific research relevant to climate engineering, and 
discussions with a number of experts, stakeholder groups, 
scientists and managers at federal agencies, and the Government 
Accountability Office (GAO).
    As noted in the attached joint agreement between the U.S. 
and U.K. Committees, Collaboration and Coordination on 
Geoengineering,\2\ the U.S. Committee investigated the research 
and development challenges associated with climate engineering, 
while the U.K. Committee focused on regulatory and 
international governance issues. Striking the right balance 
between research and regulation is critical as both should 
develop, to some degree, in parallel. Regulatory processes must 
be based on sound scientific information, and some climate 
engineering research will require regulation and government 
oversight. Furthermore, development of a comprehensive risk 
assessment framework to weigh the potential public benefits of 
climate engineering against its potential dangers will be 
needed to inform decision makers and the public as policies are 
crafted for research and possible deployment.
---------------------------------------------------------------------------
    \2\ See infra Appendix at p.47.
---------------------------------------------------------------------------
    Equally important in the development of policies for 
climate engineering research will be transparency and public 
engagement. For this reason, both the U.S. and U.K. Committees 
have sought to establish an official record through public 
proceedings with relevant background materials posted online. 
Just as full-scale deployment of climate engineering would 
necessarily have global effects, some large-scale field 
research activities will impact multiple communities and cross 
international borders. Furthermore, the impacts of climate 
engineering may be felt most by less economically-advanced 
populations that are particularly vulnerable to climatic 
changes, deliberate or otherwise. Widespread public 
understanding and acceptance is fundamental to any climate 
engineering policy that is both socially equitable and 
politically feasible.
    It is my intent that this report, the U.S. and U.K. 
Committees' hearing records, the reports from GAO, and other 
forthcoming documents will make key contributions to the 
evolving global conversation on climate engineering and help 
guide future government and academic structures for research 
and development activities in this field. In addition, the 
bilateral cooperation between the U.S. and U.K. Committees on 
this topic should serve as a model for future inter-
parliamentary collaboration. As nations become more 
technologically, economically, and ecologically interdependent, 
multilateral collaboration will be critical to developing 
policies that address an increasingly complex range of 
challenges.

                                      Congressman Bart Gordon, Chairman
                                    Committee on Science and Technology
                                 United States House of Representatives


                            C O N T E N T S

                              October 2010

                                                                   Page
Foreword.........................................................   iii

Table of Contents................................................   vii

Background.......................................................     1

Summary of Hearings..............................................     3

Research Needs...................................................     7

U.S. Research Capacities.........................................     8

    National Science Foundation..................................     9

    National Oceanic and Atmospheric Administration..............    12

    Department of Energy.........................................    17

    National Aeronautics and Space Administration................    22

    Environmental Protection Agency..............................    26

    U.S. Department of Agriculture...............................    28

    Other Federal Agencies.......................................    30

Organizational Models............................................    32

General Findings and Recommendations.............................    37

Additional Sources...............................................    45

                                Appendix

United States-United Kingdom Joint Agreement.....................    47
                Engineering the Climate: Research Needs

             and Strategies for International Coordination

    This document has been developed by the Chairman and staff 
of the U.S. House of Representatives Committee on Science and 
Technology, for use by the Members of the Committee, the United 
States Congress, and the public. It has not been reviewed or 
approved by the Members of the Committee and may therefore not 
necessarily reflect the views of all Members of the Committee. 
This document has been printed for informational purposes only 
and does not represent either findings or recommendations 
adopted by the Committee.
    This report should not be construed to provide any binding 
or authoritative analysis of any statute. This report also does 
not reflect the legal position of the United States.

BACKGROUND

    During the 111th Congress, the U.S. Committee launched an 
initiative to better understand the issues surrounding climate 
engineering, and collaborated with the U.K. Committee to 
explore the subject. The U.S. Committee convened three public 
hearings to explore the science, governance, risks, and 
research needs associated with climate engineering. A summary 
of each hearing follows this section.
    This report consolidates information gathered during 
eighteen months of inquiry, and focuses on the research needs 
associated with climate engineering. It identifies key research 
capacities, skills, and tools located within U.S. federal 
agencies that could be leveraged to inform climate engineering 
science responsibly. Included throughout the report are 
recommendations of the Chair in bold text.
    Climate engineering, or geoengineering, can be defined as 
the deliberate large-scale modification of the earth's climate 
systems for the purpose of counteracting and mitigating 
anthropogenic climate change. The strategies which fall under 
this definition are loosely organized into two types: Solar 
Radiation Management and Carbon Dioxide Removal. Solar 
Radiation Management (SRM) methods propose to reflect a 
fraction of the sun's radiation back into space,\3\ thereby 
reducing the amount of solar radiation trapped in the earth's 
atmosphere and stabilizing its energy balance. Carbon Dioxide 
Removal (CDR) methods, also known as Air Capture (AC), propose 
to reduce excess CO<INF>2</INF> concentrations by capturing 
CO<INF>2</INF> directly from the air and storing the captured 
gases as a solid through mineralization, or consuming it via 
biological processes. CDR is different from direct capture, 
which targets carbon from a single point source and stores it 
in sedimentary formations. A comprehensive discussion of the 
variety of proposed strategies can be found in the U.K. Royal 
Society report, discussed below, although it is expected that 
some proposals for climate engineering will continue to evolve 
into completely new technical concepts over time.
---------------------------------------------------------------------------
    \3\ The proposed reductions in global solar radiation absorption 
are usually 1-2%; around 30% is already reflected naturally by the 
earth's surface and atmosphere. See Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention Hearing Before the 
House of Representatives Committee on Science and Technology, 111th 
Cong. (2009) (Hearing Charter).
---------------------------------------------------------------------------
    While proposals for climate engineering in some form have 
been around for decades, climate change research and regulation 
efforts have been almost wholly focused on mitigation through 
emissions reductions and, more recently, adaptation to the 
effects of a changing climate. Because of the inherent risks 
and uncertainties, climate engineering, thus far, has not 
represented a technically viable, environmentally sound, or 
politically prudent option for preventing or adapting to 
climate change. However, in recent years a growing number of 
credible scientific bodies have engaged in more serious 
deliberation to the concept of climate engineering.
    In September of 2009 the U.K. Royal Society published a 
comprehensive report entitled, Geoengineering the Climate: 
Science, Governance and Uncertainty.\4\ In May 2010 the 
National Research Council released a pre-publication version of 
a congressionally requested report, America's Climate 
Choices,\5\ which included discussion on several carbon dioxide 
removal strategies. In the spring of 2010 the bipartisan 
National Commission on Energy Policy (NCEP) announced its 
formation of a Task Force on Geoengineering to explore U.S. 
governmental approaches to research and governance issues. 
Since the U.S. Committee began its inquiry, at least three 
books dedicated exclusively to the topic of climate engineering 
have been released. Following on to its previous efforts, the 
U.K. Royal Society, in partnership with the Environmental 
Defense Fund (EDF) and the Academy of Sciences for the 
Developing World, initiated the Solar Radiation Management 
Governance Initiative (SRMGI) to ensure strict and appropriate 
governance of any plans for solar radiation management.
---------------------------------------------------------------------------
    \4\ John Shepherd et al., Geoengineering the Climate: Science, 
Governance and Uncertainty (The U.K. Royal Society) (2009).
    \5\ Division on Earth and Life Sciences, National Research Council, 
America's Climate Choices: Advancing the Science of Climate Change 
p.299 (National Academies Press) (2010).
---------------------------------------------------------------------------
    In addition to these efforts, the U.S. Committee 
commissioned both the Congressional Research Service (CRS) and 
the Government Accountability Office (GAO) to conduct their own 
inquiries. CRS reviewed the international treaties, laws and 
other existing regulatory frameworks that might apply if 
climate engineering were tested or deployed at a large scale. 
This report was released on March 11, 2010 and is contained in 
its entirety as part of the official Committee hearing 
records.\6\ A second report was released by CRS in August 2010 
containing a more detailed consideration of the potential 
regulatory issues of climate engineering.\7\ GAO conducted a 
Committee-requested assessment of the current federal agency 
research activities directly related to climate engineering. 
This GAO inquiry focused on the general state of the science 
and technology regarding climate engineering approaches and 
their potential effects, the extent to which the U.S. federal 
government is sponsoring or participating in climate 
engineering research or deployment, the views of legal experts 
and federal officials regarding the extent to which federal 
laws and international agreements apply to climate engineering 
activities, and some of the associated governance challenges. 
This report, A Coordinated Strategy Could Focus Federal 
Geoengineering Research and Inform Governance Efforts, was 
released in October 2010.\8\ Also at the Chairman's request, a 
separate group of scientists and engineers within GAO are 
conducting a technology assessment on various climate 
engineering strategies and the related technical and societal 
considerations, with a report on their process and findings 
expected in early 2011. This GAO effort will include a survey 
of the knowledge base within the scientific community about 
leading climate engineering approaches, the public's general 
perception of those approaches, and the prospects for their 
potential development.
---------------------------------------------------------------------------
    \6\ H.R. Rep. Nos. 111-62, 111-75, 111-88 (2010).
    \7\ Kelsi Bracmort et al., Geoengineering: Governance and 
Technology Policy (U.S. Congressional Research Service) (2010).
    \8\ U.S. Government Accountability Office, A Coordinated Strategy 
Could Focus Federal Geoengineering Research and Inform Governance 
Efforts (Publication No. GAO 10-903) (2010).

SUMMARY OF HEARINGS

    The U.S. Science and Technology Committee held three public 
hearings to receive testimony from expert witnesses on climate 
engineering. The official record of these hearings, including 
discussion transcripts, witness testimony, questions for the 
record, and other supplementary materials, was finalized in 
July 2010 and will be available to academia, policy makers and 
the public.\9\
---------------------------------------------------------------------------
    \9\ Access to official hearing records is available at <http://
www.gpo.gov/congress/house/house14ch111.html>.

Geoengineering: Assessing the Implications of Large-Scale Climate 
        Intervention
    On November 5, 2009, with the Honorable Bart Gordon (D-TN) 
presiding, the U.S. Committee held a hearing to introduce the 
concept of climate engineering and explore some of the 
scientific, regulatory, engineering, governance, and ethical 
challenges. Five witnesses testified before the Committee:

        <bullet> Professor John Shepherd, Professional 
        Research Fellow in Earth System Science at the 
        University of Southampton and Chair of the Royal 
        Society working group that produced the report 
        Geoengineering the Climate: Science, Governance and 
        Uncertainty

        <bullet> Dr. Ken Caldeira, Professor of Environmental 
        Science, Department of Global Ecology at the Carnegie 
        Institution of Washington and co-author of the Royal 
        Society Report

        <bullet> Mr. Lee Lane, Co-Director of the American 
        Enterprise Institute Geoengineering Project

        <bullet> Dr. Alan Robock, professor at the Department 
        of Environmental Sciences in the School of 
        Environmental and Biological Sciences at Rutgers 
        University

        <bullet> Dr. James Fleming, Professor and Director of 
        the Science, Technology and Society Department at Colby 
        College and author of Fixing the Sky: The Checkered 
        History of Weather and Climate Control.

    Chairman Gordon introduced some key challenges with climate 
engineering and described Committee plans for future discussion 
and international collaboration. He warned that climate 
engineering is no substitute for greenhouse gas mitigation and 
would require years of research before deployment.
    During the witness testimony, Professor Shepherd described 
the goals and conclusions of the Royal Society report and 
recommended a multidisciplinary research initiative on climate 
engineering, including widespread public engagement at a global 
scale. Dr. Caldeira profiled the two major categories of 
climate engineering, solar radiation management (SRM) and 
carbon dioxide removal (CRM), and called for an interagency 
research program on both types. Mr. Lane argued for the 
economic viability of and environmental and political rationale 
for stratospheric injections, an SRM strategy. Dr. Robock 
identified some major risks and uncertainties of climate 
engineering. Specifically, he noted the problems of 
international disagreement, large-scale field testing, and the 
potential impacts of interruptions to large scale SRM systems, 
but argued for a comprehensive research program to help inform 
future climate policy decisions. Dr. Fleming provided a 
historical context on weather modification and its concurrent 
governmental challenges, arguing that any climate engineering 
initiative must be interdisciplinary, international, and 
intergenerational.
    During the question and answer period, the Members and 
witnesses discussed: the eruption of Mt. Pinatubo in 1991 as an 
analog to stratospheric injections, the potential efficacy of 
greenhouse gas mitigation goals, the need for continued 
mitigation strategies and behavioral changes, the methane 
output of livestock, the environmental impacts of stratospheric 
injections, and the challenges of international collaboration 
and regulation. They also reviewed: climate modeling and 
simulation tools, anthropogenic climate change, the 
possibilities of distributed solar panels, potential roles for 
U.S. federal agencies in research and deployment, and how to 
prioritize the different suggested strategies. The panelists 
and Members agreed that no nation, including the United States 
or the United Kingdom, should deploy any climate engineering 
strategies before performing extensive research and 
establishing appropriate governance mechanisms. They also 
agreed that a comprehensive research program should be multi-
disciplinary and internationally coordinated.

Geoengineering II: The Scientific Basis and Engineering Challenges
    On February 4, 2010, with the Honorable Brian Baird (D-WA) 
presiding, the Subcommittee on Energy and Environment held a 
hearing to explore the scientific foundation of several climate 
engineering proposals and their potential engineering demands, 
environmental impacts, costs, efficacy, and permanence. Four 
witnesses testified before the Subcommittee:

        <bullet> Dr. David Keith, Canada Research Chair in 
        Energy and the Environment at the University of Calgary

        <bullet> Dr. Philip Rasch, Laboratory Fellow of the 
        Atmospheric Sciences & Global Change Division and Chief 
        Scientist for Climate Science at Pacific Northwest 
        National Laboratory

        <bullet> Dr. Klaus Lackner, Ewing-Worzel Professor of 
        Geophysics and Chair of the Earth & Environmental 
        Engineering Department at Columbia University

        <bullet> Dr. Robert Jackson, Nicholas Chair of Global 
        Environmental Change and a Professor in the Biology 
        Department at Duke University.

    During the witness testimony, Dr. Keith emphasized the 
distinction between the two types of climate engineering, and 
compared climate engineering to chemotherapy as an unwanted but 
potentially necessary tool in the case of an emergency 
situation. Dr. Rasch described SRM strategies and suggested 
first steps for developing an SRM research program, noting that 
initial costs could be low but that more sensitive climate 
modeling tools would be needed. Dr. Lackner described the CDR 
strategies of carbon air capture and mineral sequestration. He 
noted that such technologies were compatible with a continued 
global dependence on fossil fuels and would address the causes, 
rather than symptoms, of climate change, but that high costs 
would be a challenge. Dr. Jackson discussed biological and 
land-based strategies in both the CDR and SRM categories. He 
explained that existing regulatory structures and expertise 
could accommodate many of these strategies fairly readily, but 
that both scalability and the foreseeable and unforeseeable 
impacts on other natural resources, such as water and 
biodiversity, would be problematic.
    During the question and answer period, the Members and 
witnesses discussed: the front end costs of climate engineering 
compared to traditional mitigation alone, the costs and 
potential impacts of atmospheric sulfate injections, and 
creative strategies for chemical and geological carbon uptake. 
They also explored public education and opinion on climate 
engineering, the potential effects of increased structural 
albedo, and the greatest political challenges of climate 
management. The Members emphasized some existing tools that 
could reduce the need for climate engineering, such as 
unconventional carbon capture and sequestration (CCS) 
strategies, the availability and economic viability of fossil 
fuel alternatives, and energy conservation. All the witnesses 
agreed that a basic research program on the subject is likely 
needed, whether for the ultimate goal of deployment or for the 
sake of risk management.

Geoengineering III: Domestic and International Research Governance
    On March 18, 2010, with the Honorable Bart Gordon 
presiding, the Committee held a hearing to explore the domestic 
and international governance needs to initiate and guide a 
climate engineering research program. The hearing also examined 
which U.S. agencies and institutions have the capacity or 
authorities to conduct climate engineering research. Five 
witnesses, divided into two panels, testified before the 
Committee.
    Testifying via satellite on the first panel was Member of 
Parliament Phil Willis, then Chair of the Science and 
Technology Committee in the U.K. House of Commons and 
Representative of Harrogate and Knaresborough. Mr. Willis has 
subsequently been appointed Baron Willis of Knaresborough, 
Member of the House of Lords. In his opening statement, 
Chairman Gordon welcomed Chairman Willis as his honored guest. 
He emphasized that the scientific evidence of anthropogenic 
climate change is overwhelming and that a more robust 
scientific and political understanding of climate engineering 
is needed.
    Chairman Willis testified on the U.K.-U.S. joint climate 
engineering inquiry and introduced his Committee's official 
report on the subject, The Regulation of Geoengineering.\10\ He 
delineated some of the report's key findings and 
recommendations, including governing principles, and stressed 
that while climate engineering would be an extremely complex 
and challenging venture, it would be irresponsible not to 
initiate appropriate regulation and research. During the first 
question and answer period, Chairman Willis and the U.S. 
Committee Members discussed the potential value of a 
comprehensive international database on climate engineering 
information and activities, the future of research in the 
United Kingdom, and additional opportunities for bilateral 
cooperation between the Committees. They also discussed the 
role of public opinion and the media, and how the U.K. inquiry 
process engaged both the public and scientific experts.
---------------------------------------------------------------------------
    \10\ Science and Technology Committee, United Kingdom House of 
Commons, The Regulation of Geoengineering (Stationery Office Limited) 
(2010).
---------------------------------------------------------------------------
    The second panel consisted of:

        <bullet> Dr. Frank Rusco, Director of Natural 
        Resources and Environment at the Government 
        Accountability Office (GAO)

        <bullet> Dr. Scott Barrett, Lenfest Professor of 
        Natural Resource Economics at the School of 
        International and Public Affairs and the Earth 
        Institute at Columbia University

        <bullet> Dr. Jane Long, Associate Director-at-Large 
        and Fellow for the Center for Global Strategic Research 
        at Lawrence Livermore National Lab (LLNL)

        <bullet> Dr. Granger Morgan, Professor and Head of the 
        Department of Engineering and Public Policy and Lord 
        Chair Professor in Engineering at Carnegie Mellon 
        University.

    During Panel II, Dr. Rusco summarized key findings of the 
GAO's ongoing inquiry on climate engineering, describing some 
of the existing relevant research activities in federal 
agencies, as well as some relevant international treaties. He 
also provided support for the near-term regulation of some 
climate engineering strategies. Dr. Morgan described climate 
engineering research at Carnegie Mellon University and argued 
for a cautious, risk-aware research program on solar radiation 
management. He also argued that the National Science Foundation 
should lead initial research efforts, that transparency should 
be a priority, and that the potential environmental impacts of 
specific research initiatives should inform the international 
agreements and laws intended to regulate them. Dr. Long 
discussed the key questions and principles for governance and 
risk management, and urged that the benefits of any program 
must very clearly outweigh the risks. Dr. Barrett assessed the 
different scenarios in which climate engineering might be 
needed, warning that there would necessarily be ``winner and 
losers,'' and recommended seven key governance rules.
    During the discussion period with this panel, the Members 
and witnesses discussed initial regulatory structures and 
debated the appropriate research and management roles for the 
U.S. Department of Energy (DOE), the National Science 
Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), the National Aeronautics and Space 
Administration (NASA), and other U.S. federal agencies. They 
also discussed national security and geopolitical impacts of 
climate change itself and the need for adaptive management. All 
panelists and witnesses agreed that unilateral deployment of 
climate engineering could be very dangerous and should be 
avoided. There was also a consensus that climate engineering is 
a highly interdisciplinary, diverse topic, and that any federal 
research initiative may require several agency and university 
partners.

RESEARCH NEEDS

    As stated, climate engineering research will be multi-
disciplinary and require a coordinated effort to sufficiently 
inform testing or deployment of any of the proposed 
strategies.\11\ While, some strategies, such as forest 
management, have a more extensive scientific foundation than 
others, an improved understanding of the potential efficacy and 
impacts of all proposals is needed.\12\ Below are several key 
areas of research that may be needed to better understand the 
physical and chemical processes, and assess the technical and 
financial feasibility, engineering needs, and the 
environmental, ecological and societal implications of various 
climate engineering strategies. These areas of research are 
commonly recognized by climate engineering and earth sciences 
experts as fundamental to one or more of the main proposed 
strategies. They include but are not limited to:
---------------------------------------------------------------------------
    \11\ For a detailed discussion of each geoengineering strategy and 
its scientific basis, see John Shepherd et al., Geoengineering the 
Climate: Science, Governance and Uncertainty (The U.K. Royal Society) 
(2009).
    \12\ See Division on Earth and Life Sciences, National Research 
Council, America's Climate Choices: Advancing the Science of Climate 
Change p.297 (National Academies Press) (2010).

        <bullet> Greenhouse gas monitoring, accounting and 
---------------------------------------------------------------------------
        verification

        <bullet> Hydrologic cycle modeling

        <bullet> Water and air quality modeling and monitoring

        <bullet> Atmospheric dynamics and physics

        <bullet> Ocean and lake dynamics and physics

        <bullet> Atmospheric chemical composition (e.g. carbon 
        dioxide, ozone, moisture, and other greenhouse gases 
        such as methane)

        <bullet> Ocean and terrestrial biology and ecosystems

        <bullet> Invasive plant and animal species

        <bullet> Risk assessment and risk management

        <bullet> Chemical, electrical and mechanical 
        engineering \13\
---------------------------------------------------------------------------
    \13\ See Geoengineering: Assessing the Implications of Large-Scale 
Climate Intervention Hearing Before the House of Representatives 
Committee on Science and Technology, 111th Cong. (2009) (John Shepherd 
Testimony).

        <bullet> Earth systems environmental sciences \14\, 
        including modeling
---------------------------------------------------------------------------
    \14\ Id.

---------------------------------------------------------------------------
        <bullet> Weather systems, including monsoon cycles

        <bullet> Forces impacting the ozone layer

        <bullet> Impacts of forestry and agricultural 
        practices on greenhouse gas emissions

        <bullet> Biochar

        <bullet> Terrestrial carbon sequestration

        <bullet> Phytoplankton

        <bullet> Ocean acidification and chemistry

        <bullet> Recyclable carbon adsorbents

        <bullet> Geologic/seismic imaging

        <bullet> Radiation measurement

        <bullet> Cloud microphysics

        <bullet> Geochemical dynamics and carbon 
        mineralization

        <bullet> Sea ice dynamics and thermodynamics

        <bullet> Genomic science

        <bullet> Energy generation and use

    The tools required to support these research needs include 
but are not limited to:

        <bullet> High performance computing systems for 
        modeling

        <bullet> Weather and climate monitoring tools, 
        including satellites, and ground-based and in situ 
        instrumentation

        <bullet> Land use change monitoring systems, including 
        environmental satellites

        <bullet> Networks of distributed water sampling tools 
        for both fresh and ocean waters

        <bullet> Geological imaging tools, such as 
        spectroscopic remote sensing

        <bullet> Chemical laboratories to measure and 
        understand the role of chemistry in the earth system

        <bullet> Biological and ecological observing systems 
        and laboratories

        <bullet> Engineering research laboratories with the 
        ability to bench test, field test, and evaluate various 
        climate engineering concepts

U.S. RESEARCH CAPACITIES

    There is virtually no federal funding explicitly dedicated 
to ``climate engineering'' or ``geoengineering'' research. 
However, as discussed in their October report, GAO found that 
some federal agencies already conduct activities that address 
many of the research needs identified above, albeit without 
``climate engineering'' as an express or intended goal.\15\ 
This section, in contrast with the GAO report, explores some of 
the existing tools and competencies in federal agencies that 
could contribute to climate engineering research. It is the 
opinion of the Chair that any federal climate engineering 
research program should leverage existing facilities, 
instruments, skills, and partnerships within federal agencies.
---------------------------------------------------------------------------
    \15\ See for e.g. Staff of House of Representatives Committee on 
Science and Technology, 111th Cong., Report on Geoengineering III: 
Domestic and International Research Governance Before the House of 
Representatives Committee on Science and Technology Hearing (Comm. 
Print 2010) (Frank Rusco Responses to Questions for the Record).

National Science Foundation

    The National Science Foundation (NSF) supports basic 
research and education across all fields of fundamental science 
and engineering. Most of NSF's budget is dedicated to 
supporting investigator-initiated, merit-reviewed, and 
competitively-selected awards and contracts to researchers and 
teams primarily from U.S. colleges and universities, but also, 
including non-profit organizations and private sector firms. A 
smaller portion of NSF funding goes to support major research 
centers and cutting-edge tools and facilities. NSF also has a 
long history of fostering and conducting international 
scientific collaborations on both small and large-scale 
research projects. Therefore, of the federal research agencies, 
the National Science Foundation (NSF) may have the greatest 
capacity to engage in research related to the nascent field of 
climate engineering, and it is the opinion of the Chair that 
NSF should support merit-reviewed proposals for climate 
engineering research.

         An Example of an NSF Grant  Researchers at Rutgers University 
        have received a grant, through the NSF Geosciences (GEO) 
        Directorate, to explore stratospheric injections and 
        sunshading. The team has conducted climate model simulations of 
        the various scenarios of artificially introduced particles in 
        the stratosphere. And they have investigated the potential 
        impacts of stratospheric injections on precipitation, as well 
        as the ethical implications of some climate engineering 
        proposals. As of November 2009 the team had produced five peer-
        reviewed journal articles on its research.

Research Directorates
    NSF is divided into the following seven Directorates that 
support science and engineering research and education: 
Biological Sciences; Computer and Information Science and 
Engineering; Education and Human Resources; Engineering; 
Geosciences; Mathematical and Physical Sciences; and Social, 
Behavioral and Economic Sciences. Each Directorate is 
subdivided into divisions. All Directorates, with the likely 
exception of Education and Human Resources, support research 
needs associated with climate engineering. For example, the 
Engineering Directorate currently supports fundamental research 
on the development of materials, methods, and innovative 
processes for the separation and removal of contaminants such 
as carbon dioxide from the air. The Geosciences (GEO) 
Directorate supports research on the chemistry of ocean 
acidification, including the interplay of acidification and the 
biochemical and physiological processes of organisms, and the 
implications of these effects for ecosystem structure and 
function. In addition, the Biological Sciences (BIO) 
Directorate supports research on the complexity and 
adaptability of biological systems and their interface with the 
carbon and water cycles. Research activities that could 
contribute to ocean fertilization or terrestrial CDR 
strategies, for example, are already being addressed under the 
BIO and GEO portfolios. It is the opinion of the Chair that the 
National Science Foundation (NSF) should consider how all of 
its grant programs could contribute to a climate engineering 
research agenda.

Centers and Facilities
    While NSF does not operate its own laboratories, it 
supports construction and operations for an array of advanced 
instrumentation and major research facilities, including 
oceanographic research vessels. For example, through its Major 
Research Equipment and Facilities Construction account, NSF is 
currently supporting development and construction of the 
National Ecological Observatory Network (NEON, see inset) and 
the Oceans Observatory Initiative. NSF is also the primary 
sponsor for the National Center for Atmospheric Research 
(NCAR). NCAR supports research in areas such as atmospheric 
chemistry, climate change, cloud physics, solar radiation, and 
related physical, biological, and social systems. NCAR is home 
to a number of world-class experts and tools, including an 
atmosphere-ocean general circulation model, which could 
contribute to climate engineering research. In fact, NCAR 
researchers have already begun to explore how sulfate particles 
behave in the stratosphere and their effects on the ozone 
layer.

         National Ecological Observatory Network  The NSF-funded 
        National Ecological Observatory Network (NEON) ecological 
        observation program is the most ambitious U.S. attempt to 
        assess environmental change to date. The program has divided 
        the United States into 20 eco-climatic domains and will monitor 
        the regions over 30 years through site-based and geological 
        data and airplane observations. The results will inform how 
        land use change, climate change, and invasive species affect 
        ecosystems.

         NEON's activities will include soil analysis, measuring land 
        use and vegetation changes, and monitoring forest canopy 
        heights and biomass. Its data will enable researchers to 
        quantify forces regulating the biosphere and predict its 
        response to change. NEON infrastructure will include towers and 
        sensor arrays, remote sensing, cutting-edge instrumentation, 
        and facilities for data analysis, modeling, and forecasting. 
        The level of detail and uninterrupted data sets expected from 
        NEON and the experts that analyze its data could inform 
        research on land-based climate engineering, such as 
        afforestation and reforestation, reflective crops, and biochar. 
        NEON could also contribute to the eventual monitoring of other 
        CDR strategies.

Political and Ethical Research
    Understanding the full range of impacts of climate 
engineering will entail a unique set of challenges outside of 
the scientific and engineering categories identified earlier. 
Research underlying areas such as domestic and international 
governance, economics, and risk assessment and management, will 
likely be required as long as climate engineering remains an 
option. There are also significant ethical considerations with 
the large-scale testing and deployment of climate engineering, 
since some strategies may benefit certain populations at the 
expense of others. Likewise, there are ethical considerations 
in choosing to not deploy a strategy, should it prove viable.
    NSF, with its capacity to support research in the social 
and political sciences, may be an appropriate body to lead 
federal research in these areas. The Social, Behavioral, and 
Economic Sciences (SBE) Directorate, for example, has funded 
research proposals on the societal implications of 
environmental events, such as earthquakes. The Directorate's 
Sociology Program recently funded a workshop to explore the 
sociological dimensions of climate change and climate change 
solutions, including how the social sciences might be 
incorporated into existing data infrastructure.\16\ At this 
time NSF is the only federal body with such formalized 
capacities for research on the social and political dimensions 
of science and emerging technologies.
---------------------------------------------------------------------------
    \16\ Joane Nagel et al., Workshop on Sociological Perspectives on 
Global Climate Change (National Science Foundation) (2009). Available 
at <http://ireswb.cc.ku.edu/crgc/NSFWorkshop/Readings/
NSF<INF>-</INF>WkspReport<INF>-</INF>09.pdf>.
---------------------------------------------------------------------------
    As with any government initiative in the development of 
nascent technologies that provoke some measure of controversy, 
transparency, and public engagement will be critical to a 
successful research program on climate engineering. Moreover, 
public engagement will be most effective if it is incorporated 
early, when strategies are still being considered and a 
diversity of perspectives can be incorporated.\17\ The Chair 
agrees with the U.K. Committee recommendation that governments 
should make public engagement a priority of any climate 
engineering effort. Furthermore, the National Science 
Foundation (NSF), with its institutional history of engaging 
the public on nascent technologies and funding research in the 
social and behavioral sciences, should play a critical role in 
informing public engagement strategies.
---------------------------------------------------------------------------
    \17\ Daniel Sarewitz, Not By Experts Alone, 466 Nature p.688 
(2010).

International Collaboration
    In addition to supporting basic research and early-stage 
development of nascent and transformative technologies, NSF has 
unique capacities for fostering international scientific 
collaboration. The Office of International Science and 
Engineering (OISE) supports some of its own internationally 
focused research and education programs and facilitates 
collaboration between NSF-funded researchers and international 
partners across the Foundation. However, NSF grant programs may 
fund only the U.S. portion of research projects being conducted 
by international teams of scientists and engineers. For 
example, the Division of Earth Sciences has recently granted 
funds to researchers at the University of Maryland to explore 
carbon monoxide oxidation and production, and these efforts 
will be complemented by activities funded separately at the 
Russian Kamchatka Institute of Volcanology and Seismology and 
the Russian National Academy of Sciences.\18\ The Dimensions on 
Biodiversity initiative will fund a set of coordinated 
proposals researching the role of biodiversity in ecological 
and evolutionary processes. The solicitation for this 
initiative encourages investigators to develop international 
collaborations, either through direct research partnerships or 
the development of international coordination networks.\19\ 
NSF's support of U.S. participation in international scientific 
and engineering efforts may prove critical to any significant 
international climate engineering research effort, in 
particular for those strategies with geographically dispersed 
impacts, such as stratospheric injections, marine cloud 
whitening, and ocean fertilization.
---------------------------------------------------------------------------
    \18\ For example, Dr. Frank Robb at the University of Maryland 
Biotechnology Institute received a National Science Foundation 
Collaborative Research grant, number 0747394, entitled ``Carbon 
Monoxide Dynamics in Geothermal Mats and Earth's Early Atmosphere.'' 
For more information see the National Science Foundation's website at 
<http://www.nsf.gov/awards/
award<INF>-</INF>visualization<INF>-</INF>noscript.jsp?org=EAR&showAward
Dollars=true&showPerCapita=true &region=US-MD&instId=5300000455>.
    \19\ See National Science Foundation, Program Solicitation: 
Dimensions of Biodiversity (Mar. 10, 2010). Available at <http://
nsf.gov/publications/
pub<INF>-</INF>summ.jsp?WT.z<INF>-</INF>pims<INF>-</INF>id=503446&ods 
<INF>-</INF>key=nsf10548>.

         Challenges in Europe  There are lessons to be learned from the 
        European experience with the still-nascent field of synthetic 
        biology. The potential applications of synthetic biology, 
        including its capacity to modify the genetic makeup of food 
        crops to increase crop yields and provide greater pest 
        resistance have been met with uncertainty. Public confusion 
        about governmental motivations for agricultural biotechnology 
        led to a virtual moratorium on genetically modified (GM) foods. 
        Having learned from these challenges, both German and British 
        national research councils have recently committed to a 
        thorough public dialogue regarding synthetic biology as they 
        seek to jump start development in the field.<SUP>a</SUP> A 
        number of unresolved questions on the ethical and environmental 
        implications of synthetic biology remain, and international 
        standards are minimal or nonexistent. Better public engagement 
        in Europe is seen as a fundamental step in the development of 
---------------------------------------------------------------------------
        this field.

    <SUP>a</SUP> Colin Macilwain, Talking the Talk: Without Effective 
Public Engagement, There Will Be No Synthetic Biology in Europe, 465 
Nature p.867 (2010).

National Oceanic and Atmospheric Administration

    The National Oceanic and Atmospheric Administration (NOAA), 
through its research laboratories and partners, and the Climate 
Program Office, conducts broad ranging research into complex 
climate systems with the aim of improving our ability to 
understand these systems and predicting climate variation and 
change over a range of temporal and spatial scales. NOAA's 
research capacities and monitoring and modeling tools make it 
an appropriate venue for climate engineering research--to 
understand how such activities could be conducted and what 
effects, both desired and unknown, may occur as a result.

Office of Oceanic and Atmospheric Research
    The Office of Oceanic and Atmospheric Research (OAR) is 
NOAA's primary research body, providing the research foundation 
for understanding the complex systems that support the planet. 
The role of OAR is to provide unbiased science to better manage 
the environment, on a national, regional, and global scale. To 
do this, OAR administers collaborative partnerships with 
universities and other research bodies and works with its own 
research laboratories to advance climate science. As the 
primary research and development organization within NOAA, OAR 
explores the earth and atmosphere from the surface of the sun 
to the depths of the ocean to provide products and services 
that describe and predict changes in the environment and inform 
effective decision making.
    Current research priorities at OAR could be leveraged to 
support future climate engineering research initiatives. For 
example, the Climate Program Office manages and awards funding 
through competitive research programs on high-priority topics 
in climate science, including atmosphere, Arctic ice, the 
global carbon cycle, climate variability, and oceanic 
conditions. Several types of climate engineering research needs 
could fit into these existing, broad research categories. In 
addition, the Climate Observations and Monitoring program 
maintains a highly integrated and complex network of observing 
instruments to gather climate data, which are then used for 
national and international assessment projects. Such a network 
would be pertinent to informing the scope of potential 
ecosystem impacts from climate engineering.
    Another pertinent mission at OAR is Weather and Air 
Quality. This mission focuses on forecasting and hazard 
warnings as well as on the chemical and physical makeup of the 
atmosphere, circulation patterns, and changes caused by 
chemical inputs. Although many of OAR's ocean and freshwater 
activities relate to traditional NOAA missions, such as 
fisheries management and coastline restoration, OAR also 
conducts a great measure of research on issues relevant to 
climate engineering research such as aquatic invasive species, 
freshwater contamination, the nutrient pollution cycle, and 
ocean acidification.
    OAR's laboratories support these research missions and 
conduct cutting-edge technology development and analysis. 
Specifically, the Geophysical Fluid Dynamic Laboratory (GFDL) 
and Earth Systems Research Laboratory (ESRL) support a host of 
key activities relevant to climate engineering. OAR research is 
also informed by an array of cutting-edge field observation 
tools and sensors, including surface networks, stratospheric 
balloons, ocean buoys, and aircraft, that would be uniquely 
suited to atmosphere-based climate engineering research and 
monitoring. Each program office uses powerful computing systems 
to assess and predict changes in the ecosystems. Any number of 
OAR's ongoing research activities could directly and 
immediately inform climate engineering. For example, the Arctic 
Research Office could explore the potential of geographically-
localized SRM to protect polar ice. In addition, OAR expertise 
on biological emission and absorption of greenhouse gases and 
carbon storage in oceans could be leveraged to predict the 
impacts of any potential CDR strategy.

         Research at the Earth Systems Research Laboratory  Scientists 
        at the Earth Systems Research Laboratory (ESRL) have begun to 
        explore the potential impacts of SRM on solar power production. 
        In March 2009 the Chemical Sciences Division published a paper 
        on how atmospheric sulfate injections may significantly 
        decrease power generation from solar facilities.<SUP>b</SUP> 
        The paper suggests that for every percentage of direct sunlight 
        reflected to outer space, solar power output would decrease by 
        four or five percent. In addition, there is the even more 
        troubling concern that atmospheric SRM could negatively impact 
        food crops growth and decrease yields. Any atmospheric
        SRM research program must be subject to robust risk assessment 
        and management procedures, including modeling exercises on the 
        secondary impacts that a reduction in direct sunlight could 
        have on both solar power installations and plant growth.

    <SUP>b</SUP> Daniel M. Murphy, Effect of Stratospheric Aerosols on 
Direct Sunlight and Implications for Concentrating Solar Power, 43 
Environmental Science and Technology p.2784 (2009).

National Environmental Satellite Data and Information Service
    The National Environmental Satellite, Data, and Information 
Service (NESDIS) is NOAA's satellite observation systems and 
data collection service. NESDIS transmits real time data from 
both orbiting and geo-stationary satellites for a host of 
research objectives such as weather forecasting and earth and 
ocean science, and manages the development of environmental 
satellite products. Like the environmental satellite 
capabilities within NASA, the NESDIS observing system can 
collect data on a wide variety of environmental factors 
including the motion of particles in the atmosphere, cloud, air 
and ocean temperatures, ocean dynamics, global vegetation, 
atmospheric humidity, and land cover. NESDIS also holds 
thorough data records on Arctic sea ice, which is measured via 
satellites and verified with ``ground-truthing'' equipment and 
software. Long term measurements on Arctic sea ice would be 
needed to verify the effectiveness of any climate engineering 
program, as well as the inadvertent and indirect effects of 
such programs.
    The information collected by NESDIS is processed, analyzed, 
and disseminated through NOAA's data centers. One of these data 
centers, the National Climatic Data Center (NCDC), provides for 
the long-term archiving of weather and climate data and is the 
world's largest active archive of these types of information. 
NESDIS also oversees six Regional Climate Centers (RCCs), a 
network of data management sites providing climate information 
at the state and local levels, as well as nine Regional 
Integrated Sciences and Assessments (RISA) offices, which 
deliver climate information to regional and local decision-
makers. The National Oceanographic Data Center (NODC) maintains 
physical, biological, and chemical measurements from 
oceanographic observations, satellite remote sensing, and ocean 
modeling. The National Geophysical Data Center (NGDC) manages 
the National Snow and Ice Data Center, and also holds over 400 
digital and analog databases on geophysical ground- and 
satellite-based measurements, including geochemical makeup and 
carbonate data. Data holdings from all NESDIS Centers are 
currently used to answer questions about climate change and 
natural resources, and would be useful to inform the early 
stages of climate engineering research. The Centers may also 
serve as repositories for any new data gathered in the course 
of climate engineering research.
    The NOAA satellite systems provide a range of data sets on 
atmospheric, oceanic, and geologic conditions, and new systems 
with improved instrumentation are planned for deployment. For 
example, the Geostationary Operation Environmental Satellite R-
Series (GOES-R), is a joint NOAA-NASA satellite project based 
out of Goddard Space Flight Center. The two satellites in this 
system are expected to launch in 2015 and 2017, and will 
provide data on sea surface temperature, cloud top height and 
temperature, and aerosol detection, among other baseline 
products. These tools could inform research on stratospheric 
aerosol injection, marine cloud whitening, ocean fertilization, 
and other climate engineering strategies.
    Lessons can also be learned from another NOAA-NASA joint 
project, the Joint Polar Satellite System (JPSS),\20\ formerly 
known as the National Polar-orbiting Operation Environmental 
Satellite System (NPOESS). The program was initiated in 1994 
and was slated to launch six environmental monitoring 
satellites starting in 2009. However, due to management 
challenges, explosive growth in life-cycle cost estimates, and 
schedule delays the program will instead launch two separate 
satellite systems managed by NOAA and DOD, respectively, with 
NASA serving as NOAA's technical support arm. The first JPSS 
satellite is scheduled to launch in 2014. While JPSS promises 
to deliver robust capabilities for weather and climate 
forecasting, due to the aforementioned issues, the system's 
capabilities will be significantly reduced. For instance, the 
aerosol polarimetry sensors, which retrieve specific 
measurements on clouds and aerosols in the atmosphere, were 
cancelled from two of the satellites, thus cancelling two of 
the key information products, aerosol refractive index and 
cloud particle size and distribution, which could have provided 
the types of data that atmospheric-based climate engineering 
research requires. The NPOESS/JPSS project also demonstrates 
how easily large and complex research projects can fall victim 
to financial and management challenges, as well as the 
importance of mission consistency and data continuity in the 
success of any comprehensive research program.
---------------------------------------------------------------------------
    \20\ The U.S. Science and Technology Committee held seven hearings 
on challenges facing the NPOESS program over the last seven years 
before the Investigations and Oversight and Energy and Environment 
Subcommittees. See for e.g. Continuing Independent Assessment of the 
National Polar-orbiting Operational Environmental Satellite System 
Hearing Before the House of Representatives Committee on Science and 
Technology Subcommittee on Energy and Environment, 111th Cong. (2009). 
Available at <http://science.house.gov/publications/
hearings<INF>-</INF>markups.aspx>.

Environmental Impact Research: The Oceans
    Ocean fertilization is the intentional introduction of 
nutrients, such as iron, into the surface waters of the ocean 
to stimulate the growth of phytoplankton and thereby the uptake 
of carbon dioxide from the atmosphere. Phytoplankton are 
photosynthetic; they use energy from the sun to naturally 
convert carbon dioxide and water into organic compounds and 
oxygen. Iron is necessary for photosynthesis to occur and in 
many areas of the ocean iron is not abundant, thereby limiting 
the growth of phytoplankton. The idea behind ocean 
fertilization projects is to use relatively small amounts of 
iron in iron-deficient zones to trigger large phytoplankton 
blooms. At least half of the carbon-rich biomass generated by 
such plankton blooms would be consumed by animals such as 
zooplankton and small fish, and about a third would sink into 
the cold, deep ocean water where it would be effectively 
isolated from the atmosphere for centuries. Fertilization does 
occur through natural processes such as glacial runoff, dust 
storms, and through ocean upwelling that carries cold, nutrient 
rich water to the surface. Since the early 1990s, a number of 
scientists and entrepreneurs from around the world have 
explored ocean fertilization as a means to sequester 
atmospheric carbon dioxide in the deep ocean.\21\
---------------------------------------------------------------------------
    \21\ P.W. Boyd et al., Mesoscale Iron Enrichment Experiments 1993-
2005: Synthesis and Future Directions, 315 Science p.612 (2007).
---------------------------------------------------------------------------
    Several concerns have been voiced from the scientific 
community over the efficacy and ethics of ocean fertilization. 
For example, some phytoplankton blooms (e.g., harmful algal 
blooms or HABs) produce toxins that are extremely detrimental 
to human health and coastal economies. HABs impacts in the 
Great Lakes, Gulf of Mexico, and the Pacific Northwest have 
been particularly severe and have led to the creation of ``dead 
zones.'' \22\ The increase of HABs is a concern from ocean 
fertilization projects because it is not known what types of 
plankton will ``bloom'' after fertilization. Research is 
ongoing to understand how to control, mitigate, and effectively 
respond to HABs events. That said, much research remains to be 
done in this arena, and the potential to exacerbate HABs is 
only one of the ecological hazards that could be caused by 
large-scale iron fertilization. In addition to this and other 
potential ecological effects, the efficiency of fertilization 
as well as the ability to verify the resulting sequestration of 
carbon dioxide are issues that have yet to be resolved.\23\ 
Therefore, it is the opinion of the Chair that the National 
Oceanic and Atmospheric Administration (NOAA), with its unique 
expertise and research capacities on ocean chemistry, should 
have a lead role in researching and assessing the environmental 
impacts of any climate engineering strategy involving chemical 
inputs into the environment that would directly or indirectly 
impact ocean waters, e.g. stratospheric sulfate injections and 
ocean fertilization.
---------------------------------------------------------------------------
    \22\ Harmful Algal Blooms: Formulating an Action Plan, 2009: 
Hearing on The Harmful Algal Blooms and Hypoxia Research and Control 
Act Hearing Before House of Representatives Committee on Science and 
Technology Subcommittee on Energy and Environment, 111th Cong. (2009) 
(Hearing Charter).
    \23\ Anand Gnanadesikan et al., Effects of Patchy Ocean 
Fertilization on Atmospheric Carbon Dioxide and Biological Production, 
17 Global Biogeochemical Cycles p.1050 (2003).

Environmental Impact Research: The Ozone Layer
    Some researchers have expressed concern that aerosols from 
stratospheric sulfate injections will exacerbate the effects of 
materials remaining in the atmosphere from the past usage of 
chlorofluorocarbons (CFCs).\24\ CFCs were once sold in popular 
consumer products such as aerosol spray cans and refrigerants, 
but were found to decay the atmospheric ozone layer that 
moderates the amount of ultraviolet light reaching the earth's 
surface. In response to these risks, the United States 
initiated bans on CFCs beginning in 1978, and these substances 
were essentially phased out of commerce worldwide via the 
Montreal Protocol. Since these bans have taken effect, the 
ozone layer has shown a marked recovery, but the atmospheric 
system will remain sensitive to damage in the future from CFCs 
or other hazardous compounds that have yet to be identified. In 
addition, human activities that stimulate ozone-destructive 
materials could slow or even reverse the recovery process.\25\
---------------------------------------------------------------------------
    \24\ David Keith, Geoengineering the Climate: History and Prospect, 
25 Annual Review of Energy and the Environment p.245 (2000).
    \25\ Simone Tilmes et al., The Sensitivity of Polar Ozone Depletion 
to Proposed Geoengineering Schemes, 320 Science Express p.1201 (2008).
---------------------------------------------------------------------------
    NOAA scientists were among the first to identify the risks 
presented by ozone-depleting chemicals, and OAR remains the 
federal government's primary authority on the ozone layer. NOAA 
uses satellite and ground-based measurements to continually 
monitor stratospheric ozone as well as other conditions, such 
as the presence of certain chemicals which can detrimentally 
impact the atmosphere. NOAA's Earth Systems Research Laboratory 
(ESRL), the Climate Prediction Center, and the National 
Climatic Data Center (NCDC) are all engaged in improving data 
holdings and information on ozone. It is the opinion of the 
Chair that due to its experience in researching ozone and the 
chemicals that could harm the ozone layer, the National Oceanic 
and Atmospheric Administration (NOAA) should lead federal 
efforts to explore the potential impacts of sulfates on the 
stratospheric ozone layer.

Department of Energy

    Several program offices within the Department of Energy 
(DOE) house activities and expertise that could inform research 
on climate engineering strategies.

Office of Science
    The bulk of climate change research expertise at DOE may be 
found within the Office of Science, which is responsible for 
about 40% of the overall federal R&D investment in the physical 
sciences. Of the six program offices within the Office of 
Science, at least three contain climate engineering-relevant 
research capabilities: Biological and Environmental Research 
(BER), Basic Energy Sciences (BES), and Advanced Scientific 
Computing Research (ASCR).

Biological and Environmental Research Program

    The Biological and Environmental Research (BER) program 
office supports interdisciplinary research and user facilities 
to explore biological sciences, bioenergy, climate change, 
carbon sequestration, subsurface contamination, hydrology, and 
the interface between biological and physical sciences, among 
other topics. While the program is most widely known for its 
work in human genome sequencing, and many BER activities are 
not directly related to climate engineering, a major relevant 
focus of BER is its work in genomics and biosequestration. BER 
studies the fundamental biological processes found in microbes 
and plants, and specifically how these processes influence the 
highly complex and interlinked global carbon cycle. As part of 
that charge, BER explores the potential of biosequestration, or 
the storage of organic carbon in ecosystems, and how it might 
contribute to future climate change adaptation and mitigation 
strategies. Additionally, BER genomics activities are at the 
frontier of biotechnology research, using innovative 
technologies to influence the uptake, fixation, and storage of 
carbon in microbes and plants. In this regard, BER's 
capabilities could help inform land-based climate engineering 
strategies for large-scale planting of indigenous or non-
indigenous plants to encourage biological carbon consumption. 
Additionally, some strategies call for the genetic altering or 
cross-breeding of plants or trees to enhance their capacities 
to reflect sunlight, to accelerate carbon uptake, or both.
    In addition, BER's Climate and Environmental Sciences 
Division (CESD) supports basic research in a broad variety of 
relevant subject areas, including atmospheric systems, high 
performance computer modeling, the role of terrestrial 
ecosystems in carbon cycling, subsurface biogeochemical 
processes, and other multi-scale processes and anthropogenic 
and natural activities that affect the climate. This division 
of BER supports the Carbon Dioxide Information Analysis Center 
(CDIAC) located at Oak Ridge National Laboratory. CDIAC is the 
primary climate-change data and information analysis center of 
DOE, and is considered to be one of the world's most 
comprehensive archives and managers of diverse climate data 
sets. CDIAC gathers and consolidates environmental data from a 
wide variety of sources, maintains and regularly updates that 
data, and makes the data available for free to a large 
international user database. A major source of data for CDIAC 
is the AmeriFlux observation network. Established in 1996, 
AmeriFlux tracks the carbon, water, and energy cycles in North 
America from approximately 100 sites distributed primarily 
throughout North America, with some sites in Central and South 
America. Ameriflux could contribute to carbon accounting and 
verification programs needed to monitor the effectiveness of 
carbon dioxide removal (CDR) climate engineering strategies. 
Ameriflux also coordinates with the global ``network of 
regional networks,'' FLUXNET, to share and validate data 
measurements worldwide. The networks comprising FLUXNET utilize 
complementary methodologies and instrumentation, and perform 
cross-comparisons of data sets to verify their results. The 
internationally-coordinated mission and the collaborative, 
communicative structure of AmeriFlux and FLUXNET could provide 
a model for what would be required to identify the global 
impacts and effectiveness of any climate engineering strategy, 
in particular carbon removal strategies.
    BER also manages several user facilities that could support 
climate engineering research. The Atmospheric Radiation 
Measurement (ARM) Climate Research Facility (ACRF) conducts 
aerial and land-based sampling over different climate regions 
to measure changes in sea surface temperatures, cloud life 
cycle, and other radiative properties of the atmosphere. The 
ACRF collects and archives data, and makes it available to the 
scientific community. This information is used to illuminate 
how particles in the atmosphere affect the earth's radiation 
balance, information that would be critical to any atmospheric-
based climate engineering strategies. And like Ameriflux, ACRF 
can also contribute to carbon accounting and verification 
programs that would be needed to understand the effectiveness 
of any carbon dioxide removal (CDR) program. BER also funds the 
Environmental Molecular Sciences Laboratory (EMSL) at Pacific 
Northwest National Lab. EMSL supports research in 
biogeochemistry and atmospheric chemistry at the molecular 
level, including research in areas such as aerosol formation, 
with capabilities that include supercomputing for modeling 
molecular-level processes and advanced terrestrial imaging. The 
scientific and technical experts and unique tools at EMSL could 
inform climate engineering research in areas such as geological 
and biological sequestration and stratospheric injections.

         Aerosol Research  A working group within the Atmospheric 
        Radiation Measurement program has recently published a paper on 
        predicting which types of atmospheric particles will act as 
        cloud condensation nuclei, or CCN. CNN are the tiny airborne 
        ``seeds'' around which water vapor will condense and form 
        droplets. Different types of CCN influence a cloud's particular 
        brightness and lifetime. A better understanding of CCN is 
        critical to informing marine cloud whitening, because specific 
        types of CCN would be needed to most effectively increase a 
        cloud's size and reflectivity.<SUP>c

    c</SUP> S.M. King et al., Cloud Droplet Activation of Mixed 
Organic-Sulfate Particles Produced by the Photooxidation of Isoprene, 
10 Atmospheric Chemistry and Physics p.3593 (2010).

Basic Energy Sciences Program

    The Basic Energy Sciences (BES) program office supports 
fundamental research on materials sciences, physics, chemistry, 
and engineering, with an emphasis on energy applications. Its 
work is divided into three divisions: Materials Sciences and 
Engineering; Chemical Sciences, Geosciences and Biosciences; 
and Scientific User Facilities. BER's work in geosciences and 
chemical research may be particularly pertinent to climate 
engineering research. The Geosciences Research program promotes 
understanding of earth processes and materials, such as the 
basic properties of rocks, minerals, and fluids, and it 
supports computational modeling and imaging of geophysical 
landscapes over a wide range of spatial and time scales. These 
activities are often conducted at DOE national labs and in 
concert with NSF or the USGS. Thus, Geosciences Research at BER 
may inform the fundamental chemical and technological 
requirements, as well as the long-term viability of potential 
sites, for non-traditional carbon sequestration, in which 
captured carbon would be stored and mineralized into a solid or 
liquid form in specific types of geologic systems, such as 
basalt sands. The Chemical Research program could support 
unconventional carbon capture and sequestration (CCS) by 
informing the chemical processes through which carbon dioxide 
or other greenhouse gases can be mineralized for storage, as 
well as the characterization and development of chemicals, such 
as amines, to capture carbon from the air.
    BES also manages the Energy Frontier Research Centers, a 
set of temporary, highly focused, transformative energy 
research collaborations. The EFRC program is structured to fund 
the country's best talent in research to address fundamental 
scientific barriers to energy security and key energy 
challenges. Forty-six EFRCs are currently being funded over a 
five year period, and several of these are intended to address 
geologic capture and storage of CO<INF>2</INF>.\26\ The new 
information from these EFRCs can contribute greatly to the body 
of information on unconventional CCS.
---------------------------------------------------------------------------
    \26\ For example, the objective of the Energy Frontier Research 
Center located at Lawrence Berkeley National Laboratory is to establish 
the scientific foundations for the geological storage of carbon 
dioxide. For more information see the Energy Frontier Research Center 
website <http://www.er.doe.gov/bes/EFRC/CENTERS/NCGC/
efrc<INF>-</INF>NCGC.html>.

Advanced Scientific Computing Research Program

    The Office of Science's Advanced Scientific Computing 
Research (ASCR) program stewards several of the largest 
computational facilities in the world dedicated to unclassified 
scientific research. Its broad and varied capabilities include 
producing high-fidelity, highly complex simulations of the 
earth's systems and the potential changes they might undergo. 
This allows scientists, from both the private and public 
sectors, to analyze theories and experiments on weather 
patterns, the water cycle, changes in atmospheric carbon, and 
others that are too dangerous, expensive, or simply impossible 
to test otherwise. The Scientific Discovery through Advanced 
Computing (SciDAC) Program within ASCR integrates with other 
research efforts at DOE to explore application-focused research 
initiatives, including climate activities. For example, SciDAC 
has provided detailed climate simulations to the Biological and 
Environmental Research (BER) program. One SciDAC project will 
develop and test a global cloud resolving model (GCRM) that 
divides global atmospheric circulation into grid cells 
approximately 3 km in size.\27\ The level of complexity and 
number of variables in the atmospheric system can only be 
modeled at such a refined spatial resolution through highly 
powerful computing systems.
---------------------------------------------------------------------------
    \27\ David A. Randall, On a Cloudy Day--the Role of Clouds in 
Global Climate (Colorado State University) (2007). Available at <http:/
/www.scidac.gov/climate/climate.html>.
---------------------------------------------------------------------------
    Given the wide variety of climate engineering's potential 
unintended impacts on earth systems, exhaustive efforts must be 
made to identify and avoid the most dangerous of those before a 
climate engineering program is tested or deployed at any scale. 
The complex modeling capacities through ASCR could provide 
valuable predictions as to the potential impacts of climate 
engineering without the risks of large scale field testing. 
Therefore, it is the opinion of the Chair that the expertise 
and the high-end computing facilities overseen by the Advanced 
Scientific Computing Research (ASCR) program, or other 
comparable high-performance computing tools, should be used to 
model the impacts of climate engineering before field testing 
is performed.

Other Research Activities at DOE

Office of Energy Efficiency and Renewable Energy

    The Office of Energy Efficiency and Renewable Energy (EERE) 
is responsible for working with industry and other stakeholders 
to advance a diverse supply of energy efficient and clean 
energy technologies and practices, through research in areas 
such as wind and solar energy generation and advanced vehicle 
technologies. In contrast to the basic research activities in 
the Office of Science's BER program, the Biomass Program within 
EERE represents the application side of DOE's biomass efforts, 
consolidating research on biomass feedstocks and conversion 
technologies, biofuels, bioproducts, and biopower. The Program 
works closely with BER and in coordination with the USDA to 
translate basic scientific information to deployable and 
commercializeable technologies. In this way, the Biomass 
Program could inform land and biological-based strategies by 
drawing on its collective expertise on biochar and biomass-
related carbon sinks and releases from land use changes. For 
example, the Biomass Program examines how biomass is converted 
to both biochar (solid) and bio-oil (liquid) by heating it in 
the absence of air, a conversion technology process called 
pyrolysis. Biochar may have potential as an efficient method of 
atmospheric carbon removal, via plant growth, for storage in 
soil. Biochar is a stable charcoal-solid that is rich in carbon 
content, and thus can potentially be used to lock significant 
amounts of carbon in the soil. The bio-oil can be converted to 
a biofuel after an additional, costly conversion process. The 
Biomass Program focuses on how to reduce costs of the 
conversion process and how to manipulate product ratios for 
more or less bio-oil and biochar. Additionally, the Biomass 
Program has funded joint research with the EPA and USDA to 
develop quantitative models of international land use changes 
associated with increased biofuel production, including life-
cycle analyses. These types of activities would help in 
determining the life-cycle carbon impacts of large scale 
biomass production.

Office of Fossil Energy

    The Office of Fossil (FE) seeks to develop technologies to 
enhance the clean use of domestic fossil fuels, reduce 
emissions from fossil-fueled power plants, and maintain secure 
and reasonably priced fossil energy supplies. FE's mission is 
supported by research activities at the National Energy 
Technology Lab (NETL), which has sites in five U.S. cities.
    Through the Office of Fossil Energy and in part, the 
National Labs, DOE has spent a number of years on near- and 
long-term strategies to accelerate research, development, and 
demonstration of carbon capture from fossil-fueled power plants 
and geologic storage in deep saline aquifers, depleted oil and 
gas fields, and sedimentary formations. Its activities have 
included the Clean Coal power Initiative, FutureGen, the 
Innovations for Existing Plants Program, the Advanced 
Integrated Gasification Combined Cycle (IGCC) Program, and the 
Carbon Sequestration Regional Partnerships. DOE has also 
represented the United States in international research 
consortia on CCS such as the Carbon Sequestration Leadership 
Forum (CSLF). The CSLF is comprised of 24 member countries and 
the European Commission, and is organized by DOE. The purpose 
of the CSLF is, through international cooperation, to 
facilitate CCS technology development, and to overcome 
technical, economic, environmental, regulatory, and financial 
obstacles.
    The climate engineering strategy of air capture, by 
comparison, captures carbon dioxide directly from ambient air 
rather than from a point source like the flue gas stream of a 
coal-fired power plant. The captured gases could be stored in 
``alternative'' geologic formations such as basalt sands, in 
formations under the oceans, or converted to different products 
altogether. The existing skill sets and resources at DOE could 
readily translate to research on air capture and unconventional 
sequestration. In fact, NETL has already awarded grant funding 
to explore the options for carbon storage in alternative 
materials for ``beneficial reuse,'' such as a concrete, rather 
than storage in the more commonly suggested depleted oil fields 
and sedimentary geologic formations.\28\ Therefore, it is the 
opinion of the Chair that the Department of Energy (DOE) should 
lead any federal research program into air capture and non-
traditional carbon sequestration.
---------------------------------------------------------------------------
    \28\ Winning projects were announced on July 22, 2010 and will 
receive funding via the American Reinvestment and Recovery Act (ARRA). 
See <http://fossil.energy.gov/recovery/projects/
beneficial<INF>-</INF>reuse.html>.

         ``Because of the similarities with CCS, it makes some sense to 
        augment current research by DOE's Fossil Energy program in CCS 
        to include separation technology related to air capture of 
        CO<INF>2</INF>. There are technical synergies in the chemical 
        engineering of these processes and the researchers are in some 
        cases the same. The research is complementary. The governance 
---------------------------------------------------------------------------
        issues related to geologic storage are exactly the same.''

           --Dr. Jane Long, Geoengineering III: Domestic and 
        International Research Governance (hearing testimony) (2010).

National Aeronautics and Space Administration

    The National Aeronautics and Space Administration (NASA) 
houses robust airborne and satellite-based environmental 
monitoring capacities and facilities devoted to studying 
geologic and atmospheric conditions. In addition, NASA employs 
to high-performance modeling tools that could support climate 
engineering research.

Earth Science Division
    NASA's Earth Science Division, under its Science Mission 
Directorate, is responsible for advancing understanding of the 
earth's systems and demonstrating new technologies and 
capabilities through research and development of environmental 
satellites. The Earth Science Division measures climate 
variability through various satellite and airborne missions and 
performs basic research and advanced modeling of earth's 
systems.\29\ The tools and expertise located within the Earth 
Science Division could inform any number of climate engineering 
applications through modeling, observing, and analyzing land 
use and atmospheric change to attempt to predict, and 
ultimately monitor, the impacts of large scale testing and 
deployment of such climate engineering applications.
---------------------------------------------------------------------------
    \29\ See National Aeronautics and Space Administration, Responding 
to the Challenge of Climate of Environmental Change: NASA's Plan for a 
Climate-Centric Architecture for Earth Observations and Applications 
from Space (2010). Available at <http://science.nasa.gov/earth-science/
>.

Satellites
    The Earth Science Division operates a set of coordinated 
satellites that could contribute to climate engineering 
research in a number of ways. These satellites record 
perturbations in a variety of earth systems, including the land 
surface, biosphere, sea ice, atmosphere, and oceans. These 
measurements help construct a detailed picture of global 
change, especially when augmented by land- and ocean-based data 
from other sources. In addition, some of these missions involve 
international partnerships, which, in the case of deployment of 
climate engineering applications, would likely be necessary to 
ensure global coverage in monitoring. Two currently operating 
satellites systems and one being planned for launch are 
profiled as examples below. A host of other NASA observing data 
and instruments may be useful for informing climate engineering 
strategies. Ultimately, the chosen climate engineering strategy 
would determine the specific requirements of the space-based 
system intended to monitor its effects.

Stratospheric Aerosol and Gas Experiment
    First launched in 1979, the Stratospheric Aerosol and Gas 
Experiment (SAGE) series, which measures changes in the ozone 
layer and the presence of aerosols in the atmosphere. SAGE I 
measured sunlight absorption from 1979-1981. Launched in 1984, 
SAGE II provided information about the ozone layer and 
atmospheric water vapor for over twenty-one years. SAGE III was 
launched in 2001 and provided information on ozone and the 
presence of water vapor and aerosols in the atmosphere. It was 
terminated in 2006 due to loss of communication with the 
satellite. At the first Committee hearing, Dr. Alan Robock 
noted in his testimony:

        LWhile the current climate observing system can do a 
        fairly good job of measuring temperature, 
        precipitation, and other weather elements, we currently 
        have no system to measure clouds of particles in the 
        stratosphere. After the 1991 Pinatubo eruption, 
        observations with the SAGE II instrument . . . showed 
        how the aerosols spread, but it is no longer operating. 
        To be able to measure the vertical distribution of the 
        aerosols, a limb-scanning design, such as that of SAGE 
        II, is optimal.

    As volcanic eruptions can serve as a natural analog for 
stratospheric injections, careful monitoring of major eruptions 
through satellites could greatly inform certain SRM 
strategies.\30\ Marine cloud whitening and stratospheric 
injections strategies would also require robust information on 
atmospheric particles and aerosol movement and distribution. 
Many experts have argued that the U.S. research and monitoring 
infrastructure on the behavior of atmospheric particles would 
require significant improvement to sufficiently inform climate 
engineering. For these reasons instruments for measuring 
atmospheric aerosols would be critical to a climate engineering 
research program, in particular for the atmosphere-based 
strategies.\31\
---------------------------------------------------------------------------
    \30\ Committee witness, Dr. Granger Morgan, equated volcanic 
eruptions to ``natural SRM experiments.'' See Geoengineering III: 
Domestic and International Research Governance Hearing Before the House 
of Representatives Committee on Science and Technology, 111th Cong. 
(2010) (Granger Morgan Written Testimony).
    \31\ NASA has begun plans to refurbish SAGE III with the 
President's Fiscal Year 2011 budget request. Its launch date goal is as 
early as late 2014. See NASA, Responding to the Challenge of Climate 
and Environmental Change: NASA's Plan for a Climate-Centric 
Architecture for Earth Observations and Applications from Space (2010). 
Available at <http://science.nasa.gov/earth-science/>.

Landsat
    Landsat is a series of seven satellites constructed by NASA 
and operated by the U.S. Geological Survey (USGS). The first 
satellite was launched in the early 1970s to collect spectral 
information from the earth's surface. The program has since 
produced an archive of over thirty-seven years of uninterrupted 
data on land cover, making it the world's oldest continuous 
record of global imagery.\32\ This information, taken at a 
spatial resolution of just 30 m units, can be used in 
comparison with local and regional climate data to determine 
the impacts of specific land use changes on temperature, 
precipitation, evapotranspiration, and reflectivity. In this 
manner Landsat could be used for researching and monitoring 
land-based geoengineering strategies, such as aggressive 
afforestation and reforestation and reflective crops. In fact, 
Brazil already leads a forest carbon tracking program largely 
based on Landsat data. However, at present only two satellites, 
Landsat-5 and Landsat-7, launched in 1984 and 1999 
respectively, continue to supply imagery, and have already 
outlived their projected lifespans. In anticipation of service 
interruption, NASA and USGS are developing a follow-on 
satellite as part of the Landsat Data Continuity Mission 
(LDCM), and hope to launch it in late 2012.\33\ Success of the 
LDCM is critical to maintaining data continuity of moderate 
resolution remote sensing imagery.
---------------------------------------------------------------------------
    \32\ The data continuity of Landsat is required by law. 15 U.S.C. 
Sec.  5601 et seq.
    \33\ Carl E. Behrens, Landsat and the Data Continuity Mission p.4 
(U.S. Congressional Research Service) (2010).

         The Orbiting Carbon Observatory  Several experts have noted 
        the role that Orbiting Carbon Observatory (OCO) might have 
        played in researching topics related to climate engineering. 
        The project, initiated in NASA's Earth System Science 
        Pathfinder Program, was intended to take precise space-based 
        measurements of the carbon concentrations in Earth's atmosphere 
        and improve understanding of the processes that regulate 
        atmospheric CO<INF>2</INF>. However, a launch-related failure 
        caused the OCO to crash into the Pacific Ocean upon launch in 
        February 2009. This data could have informed the effectiveness 
        of any CDR strategy. This capability could be realized again if 
        NASA successfully launches and deploys its second version of 
---------------------------------------------------------------------------
        the satellite by 2013, as planned.

MODIS
    Data collected by the Moderate Resolution Imaging 
Spectroradiometer (MODIS) instrument is an example of how NASA 
could inform ocean-based climate engineering strategies. 
Launched in 1999 on board the Terra Satellite, and in 2002 on 
the Aqua satellite, MODIS instruments work in-tandem to record 
changes occurring on land, in the oceans, the lower atmosphere, 
and the water cycle. MODIS' ocean color sensing capabilities 
could be used to identify the growth and motion of carbon-
consuming plankton, which is purported to be stimulated by the 
inputs of iron or other chemicals into ocean waters. MODIS can 
measure carbon levels on land, as well, by recording the levels 
of photosynthesis conducted by plants. MODIS also records 
measurements on sea surface height and temperature that could 
monitor the effectiveness of a strategy once it has been 
deployed. It records data on cloud type, the percentage of the 
earth's surface that is covered by clouds on a given day, and 
the amounts of aerosols present in the troposphere. In fact, 
the MODIS instruments on both Terra and Aqua were key to 
distinguishing clouds from the ash plume created by 2010 
eruption of the Eyjafjallajokull volcano in Iceland.\34\ Each 
of these capacities would be pertinent to one or more 
strategies, most notably marine cloud whitening and 
stratospheric injections.
---------------------------------------------------------------------------
    \34\ Mitigating the Impact of Volcanic Ash Clouds on Aviation--What 
Do We Need to Know? Hearing Before the House of Representatives 
Committee on Science and Technology Subcommittee on Space and 
Aeronautics, 111th Cong. (2010) (Jack Kaye Testimony).
---------------------------------------------------------------------------
    Landsats 5 and 7, Terra and Aqua are among the 13 
monitoring satellites NASA has in operation, and an additional 
20 satellites, including OCO-2, are being planned as of July 
19, 2010. NASA's existing satellite-based information could not 
only help increase understanding of global processes and 
feedback, but could also provide the long-term data sets needed 
to identify the ``fingerprints'' of human activity, both 
unintentional and intentional. The Chairman recommends that the 
National Aeronautics and Space Administration's (NASA) 
previously collected earth systems data and its future 
observations of any relevant naturally occurring environmental 
event, such as volcanic eruptions, be integrated as appropriate 
into any comprehensive federal climate engineering research 
program.

Basic Research and Modeling
    Complementing the satellite portfolio, NASA's Earth Science 
Research program supports a variety of climate engineering-
relevant research activities, including carbon cycling, global 
climate and environmental models, ozone trends, and 
biogeochemistry. The Earth Science Division also supports high-
end computing capabilities, in particular through the Ames 
Research Center and Goddard Space Flight Center. In June 2010 
the Goddard Space Flight Center introduced its NASA Center for 
Climate Simulation (NCCS), which more than doubles the 
computing capacity at Goddard and will provide visualization 
and data interaction technologies for climate prediction and 
modeling elements of the biosphere such as ice cover. The 
Goddard Institute for Space Studies (GISS) is the research 
center housing NASA's primary climate modeling and research 
capabilities, including general circulation models (GCMs) that 
study the potential for humans to impact the climate. Computing 
modeling capacities at the Goddard Institute for Space Studies 
have already been used to carry out simulations of sulfate 
aerosols at different various altitudes and latitudes in the 
atmosphere through climate modeling grants.\35\ Researchers at 
GISS also perform data analysis on key climate information that 
could eventually inform the effectiveness of climate 
engineering applications. In the last year, for example, GISS 
has launched at least two new research campaigns on the 
behavior of aerosols in the atmosphere,\36\ which may help 
inform the scientific theory behind atmosphere-based climate 
engineering. Basic climate research, modeling, and computing at 
NASA could contribute in a number of ways to a federal climate 
engineering research program.
---------------------------------------------------------------------------
    \35\ Philip J. Rasch et al., An overview of Geoengineering of 
Climate Using Stratospheric Sulphate Aerosols, 366 Philosophical 
Transactions of the Royal Society A p.4007 (2008).
    \36\ See for e.g. NASA's Goddard Institute for Space Studies (GISS) 
research initiative on carbonaceous aerosols, which is contributing to 
the U.S. Department of Energy's larger Carbonaceous Aerosol and 
Radiation Effects Study (CARES) campaign. Available at <http://
www.giss.nasa.gov/research/news/20100701/>.

Adaptive Management and Complex Missions
    NASA scientists and engineers may also be uniquely suited 
to research some climate engineering applications due to an 
institutional capacity for complex, technical missions and 
highly adaptive design capabilities. Space-based applications 
at NASA are original designs, developed to fulfill specific, 
and often changing, mission objectives. For this reason NASA 
has a unique capacity for risk assessment, managing complex 
operating environments and accommodating significant unknowns. 
As Dr. Jane Long noted in her testimony, these skills, known as 
``adaptive management,'' would be critical to modifying a 
complex, non-linear system, such as the climate, 
successfully.\37\
---------------------------------------------------------------------------
    \37\ Geoengineering III: Domestic and International Research 
Governance Hearing Before the House of Representatives Committee on 
Science and Technology, 111th Cong. (2010) (Jane Long Testimony).

Environmental Protection Agency

    As the federal body responsible for protecting human health 
and safeguarding the natural environment, including air 
quality, water quality, soils, and biodiversity, the 
Environmental Protection Agency (EPA) would be needed to 
regulate many of the proposed climate engineering activities if 
tested or deployed. The Agency also contains a broad set of 
research capacities that could contribute to the scientific 
foundation of climate engineering. The Office of Research and 
Development (ORD), one of EPA's twelve headquartered offices, 
serves as the Agency's primary research arm to inform a variety 
of environmental topics, such as nanotechnology and global 
climate change, as well as risk assessment, risk management and 
region-specific technical support. Contained within ORD are 
seven Research Fields:

        <bullet> National Center for Environmental Assessment 
        (NCEA)

        <bullet> National Center for Environmental Research 
        (NCER)

        <bullet> National Center for Computational Toxicology 
        (NCCT)

        <bullet> National Homeland Security Research Center 
        (NHSRT)

        <bullet> National Risk Management Research Laboratory 
        (NRMRL)

        <bullet> National Exposure Research Laboratory (NERL)

        <bullet> National Health and Environmental Effects 
        Research Laboratory (NHEERL)

    The information gathered and synthesized at ORD provides 
the scientific foundation for the other EPA program offices, 
such as Office of Air and Radiation, to most appropriately 
regulate activities that impact the environment.
    ORD's research on potential climate engineering activities 
could inform EPA's position on which strategies have 
unacceptable environmental risks, how specific strategies are 
likely to impact natural resources, and the potential 
consequences to human health. It is the opinion of the Chair 
that as the Environmental Protection Agency's (EPA) steward of 
basic research, the Office of Research and Development (ORD) 
should be a partner in any climate engineering research 
program.

National Center for Environmental Economics
    The National Center for Environmental Economics (NCEE) 
within EPA's Office of Policy, Economics and Innovation (OPEI) 
is responsible for developing cost-benefit analyses of 
environmental policies and their secondary impacts. NCEE 
releases journal articles, Environmental Economics reports, and 
research papers to compare costs and assess risks in specific 
cases, such as the effects of acidic air pollutants on crop 
yields. Such analysis could be used to compare climate 
engineering strategies and provide an economic baseline to help 
determine which strategies appear economically undesirable in 
comparison with traditional mitigation strategies. Tools such 
as those within NCEE may also be particularly important with 
regards to those climate engineering strategies where financial 
cost is not a significant consideration when compared to 
alternatives. Stratospheric aerosols, for example, are expected 
to be deployable at a relatively low direct cost. However, 
their indirect economic impacts, such as changes to natural 
resources and the productivity of solar power arrays, could far 
outweigh the immediate expense of deployment. NCEE could 
analyze and report on the potential secondary costs of climate 
engineering in order to properly incorporate them in objective 
economic cost-benefit analyses. NCEE could also provide useful 
risk assessment information and identify avenues to link 
climate engineering to the social sciences.

Early Regulatory Needs
    Outside of its potential contributions to the basic 
research needs associated with climate engineering, EPA may 
also be needed to explore the regulatory needs and options as 
the science develops. At this time the Agency is finalizing its 
rules on carbon sequestration in underground geological 
formations, via its authority under the Safe Drinking Water Act 
(SDWA). In developing these regulations EPA has sought to use 
the best science in order to perform risk assessments and 
identify and qualify the events that might endanger drinking 
water safety and human health, such as the potential for 
contaminant leakage. If climate engineering deployment becomes 
a more serious option, EPA should stay abreast of the evolving 
science and be prepared with the most appropriate regulatory 
options. Furthermore, EPA may be needed to regulate research in 
the case of large-scale field tests. One common concern about 
climate engineering research is that because the climate system 
is so complex and interconnected, for field testing to be 
useful, it would have to be conducted at near-deployment scale 
to fully determine a strategy's effectiveness and secondary 
impacts. While overly-restrictive regulations that 
unnecessarily hinder our ability to inform the risks and 
opportunities of climate engineering should be avoided, some 
proposed field research activities could have meaningful 
impacts on our ecosystems. In the interest of protecting human 
health and natural resources, EPA may be needed to apply 
existing regulations or develop frameworks for new regulations 
should large-scale field testing commence.

U.S. Department of Agriculture

    The United States Department of Agriculture's (USDA) 
ability to monitor and research land use change, agriculture 
practices, forestry, and biological sequestration could be 
informative to a range of climate engineering strategies. The 
USDA is broken into several sub-agencies based on program 
missions, and of these, the Agricultural Research Service 
houses a number of relevant tools and skill sets, along with 
the U.S. Forest Service and the Economic Research Service.

Agricultural Research Service
    The Agricultural Research Service (ARS) is the USDA's 
primary research arm and is responsible for, among other 
activities, exploring the interaction of agriculture and the 
environment. Its activities are organized into National 
Programs (NPs) that focus on specific topics, and several of 
the active NPs have clear relationships to climate engineering, 
such as Soil Resource Management, Air Quality; Global Change; 
Integrated Agricultural Systems; and Climate Change, Soils and 
Emissions.
    The Bioenergy NP, for example, is the USDA initiative 
primarily responsible for research on the production and use of 
biochar and bioenergy. As described earlier in the section on 
Department of Energy activities, biochar, a charcoal produced 
from carbon-rich organic materials, could be developed and 
deployed as a biological climate engineering strategy. Biochar 
may be used for several purposes: to produce energy, to produce 
soil fertilizers, and simply to biologically sequester carbon 
from the atmosphere. USDA, along with DOE, has been responsible 
for the bulk of research on biochar feedstocks and land issues 
at the federal level, and could use its expertise to inform 
scientific research and biomass related strategies. It is to be 
noted that while the USDA and DOE have done significant 
research on biochar, it has been in pursuit of beneficial soil 
amendments and/or bio-oil, which can be used for fuel, with a 
lesser focus on carbon sequestration goals. The USDA has not 
examined in detail the singular goal of using biochar to 
achieve climate engineering-scale changes in atmospheric carbon 
levels. Biological or land-based strategies would likely be 
needed over vast parcels of land, perhaps millions of 
acres,\38\ in order to be effective. Biochar deployment 
activities at this scale would entail considerable economic 
challenges. The USDA's Economic Research Service, described 
below, has the skill set to inform the economic viability of 
biochar at a climate engineering scale.
---------------------------------------------------------------------------
    \38\ Geoengineering II: The Scientific Basis and Engineering 
Challenges Hearing Before the House of Representatives Committee on 
Science and Technology Subcommittee on Energy and Environment, 111th 
Cong. (2010) (Robert Jackson Testimony).
---------------------------------------------------------------------------
    The potential contributions of ARS extend beyond 
understanding the impacts of land-based climate engineering 
strategies. Atmosphere-based strategies for increasing global 
albedo would purportedly control temperature increases that 
could be harmful to agriculture and forest growth, at least for 
some period of time. However, reflecting 1-2% of incoming solar 
radiation, as most SRM strategies recommend, may also be 
detrimental to plant growth. All plants require sunlight for 
photosynthesis to grow and reproduce, so a decrease in direct 
sunlight could negatively impact crop yields. In addition, it 
remains unclear how chemical inputs to the atmosphere could 
affect plant growth and soils. Atmospheric modeling suggests 
that particles injected into the stratosphere, such as sulfates 
and salts, would eventually fall into the troposphere and 
``rain out'' onto land and water surfaces below. In sufficient 
quantities, these materials could have negative impacts on both 
existing plants and soil content. Both to protect the 
livelihood of farmers and to protect the health of food sources 
and ecosystems in general, ARS could help predict and quantify 
the extent of these negative impacts on land and water and 
provide a valuable contribution to the overall risk analysis of 
climate engineering.

U.S. Forest Service
    The U.S. Forest Service, which manages the 155 U.S. 
national forests and 20 U.S. national grasslands, since 1905 
has maintained its own Research and Development organization. 
The R&D branch collaborates closely with the ARS, and its more 
than 500 researchers study, among other topics: forest and 
grassland health, sustainable forest management, invasive 
species, aquatic ecosystems, tree growth and mortality, and 
forest inventories. The institutional knowledge and management 
skills within the R&D branch could be used to inform aggressive 
afforestation and reforestation strategies, both by issuing 
projections on how effective a strategy might be and also for 
identifying key risks associated with climate engineering-scale 
forest management. For example, its Invasive Species Research 
Program develops tools to predict and prevent the introduction 
of invasive species. Modification to plant growth at a large-
scale, in particular via monoculture cropping, can make an area 
particularly susceptible to damage from non-native and invasive 
insects or plants. A research program on man-made forests for 
carbon storage or reflective grasses intended to increase local 
albedo, might benefit from such expertise.
    Forest Service R&D also performs a wide variety of research 
activities on the sequestration capacity of soils, vegetation, 
and forests. Additional research is conducted to inform our 
understanding of how soil capacity will change over time with 
the climate. Higher atmospheric carbon levels and changes in 
the earth's water cycles caused by climate change may make the 
sequestration potential of plant growth better or worse, and at 
a very large scale, these potential fluctuations could 
significantly alter the impacts of carbon-sensitive land 
management. Furthermore, resource specialists in the Forest 
Service work with the Economic Research Service to explore land 
use competition and prioritize uses for economical and 
environmental activities. Such analysis could be important 
because of the economic pressure these activities will put on 
natural resources.
    In addition, the U.S. Forest Service recently established a 
National Roadmap for Responding to Climate Change to guide 
forest managers in implementing the USDA climate change 
strategy. The program details the potential of forests and 
soils to mitigate atmospheric greenhouse gas concentration 
through biological storage. This information could ultimately 
inform forest management as part of a larger climate 
engineering program. In addition, while the Roadmap is intended 
for climate change mitigation and adaptation, and does not 
address climate engineering specifically, it proposes 
frameworks for a communication network with regional managers 
regarding short- and long-term goals and best practices, plans 
for public education and outreach, and thorough coordination 
with other agencies and groups. The plan's emphasis on 
adaptation needs and a communications strategy is somewhat 
unique to current federal climate change efforts. These 
elements would augment any large-scale climate engineering 
effort, and, as such, the Forest Service Roadmap may be a 
valuable model for coordinating activities to educate land 
managers on climate engineering-scale forestry and biological 
sequestration.

Economic Research Service
    The USDA's Economic Research Service (ERS) informs public 
and private decision-making on economic issues related to 
agriculture and natural resources. This resource could be 
adapted to assess the economic viability of biological climate 
engineering activities. Any strategy would alter and create 
competition for natural resources.

         ``Biological and land-based geoengineering alters carbon 
        uptake, sunlight absorption, and other biophysical factors that 
        affect climate together. Geoengineering for carbon or climate 
        will alter the abundance of water, biodiversity, and other 
        things we value.''

           --Dr. Robert Jackson, Geoengineering II: The Scientific 
        Basis and Engineering Challenges (written hearing testimony) 
        (2010).

    For example, large-scale afforestation could require a 
significant input of water, so benefits such as air quality and 
decreases in atmospheric carbon concentrations would be 
balanced against greater competition for local water resources 
that could be needed for other uses. Similarly, since certain 
strategies could be particularly land-intensive, climate 
engineering could cause added competition for land use. The 
ERS, which employs both economists and social scientists to 
conduct its research, may be needed to explore potential trade-
offs and inform how a land-based strategy could be economically 
viable. The ERS also conducts research on financial 
instruments, such as tax credits, that might encourage private 
landowners to undertake specific climate engineering 
strategies, such as distributed carbon management 
activities.\39\
---------------------------------------------------------------------------
    \39\ See for e.g. Jan Lewandrowski et al., Economics of 
Sequestering Carbon in the U.S. Agricultural Sector (U.S. Department of 
Agriculture--Economic Research Service) (2004). Available at <http://
ssrn.com/abstract=552724>.

Other Federal Agencies

    A number of other federal agencies have capacities that 
could inform climate engineering research.
    The Department of Defense (DoD) has significant expertise 
and experience in relevant areas such as large-scale 
engineering projects and airborne missions. Several experts 
recommend that this knowledge-base could complement climate 
engineering-specific programs. However, it should be noted that 
given the lack of transparency of defense research and 
programs, leveraging the capabilities of DoD could result in an 
adverse impact on the goal of public engagement and education 
on the issue of climate engineering. It is the opinion of the 
Chair that if the Department of Defense's (DoD) expertise were 
to be engaged in a national climate engineering research 
strategy, special attention must be paid to public engagement 
and transparency, and all research efforts must be committed 
solely to peaceful purposes.
    The U.S. Geological Survey (USGS), within the Department of 
the Interior, would also have a role in research on land- and 
bio-based climate engineering strategies. The diverse USGS 
team, which includes geoscientists, biologists, chemists, 
geographers, hydrologists, statisticians, and ecologists, 
supports a breadth of scientific research, monitoring, and 
analysis. For example, the USGS conducts programs to detect, 
monitor, and control invasive species, catalogue land use and 
the impacts of land use change, and examine the biological, 
chemical, and environmental factors affecting water quality. In 
addition to its contributions to joint research and satellite 
monitoring programs such as Landsat, USGS has unique remote 
sensing capabilities that provide data on natural resources and 
how they are affected by change. These data sets, such as those 
managed through the USGS' National Satellite Land Remote 
Sensing Data Archive, can work in concert with ``ground-
truthing'' data gathered by researchers within the agency or 
outside groups. The USGS also has institutional expertise in 
basic science and monitoring capacities to augment carbon 
mineralization research. Recently USGS established a 
methodology to define and map a comprehensive inventory of 
underground pore space in the U.S. that could be used for 
mineral sequestration of carbon, such as basalt sands.
    Furthermore, some strategies call for the distribution of 
certain chemicals over land or oceans to stimulate processes 
that consume carbon, either by mineralizing the carbon into a 
solid through chemical reactions, by stimulating the growth of 
carbon-consuming organisms, or by increasing the ocean's 
capacity to store CO<INF>2</INF>. The USGS maintains the 
federal government's most comprehensive commodities survey on 
mineral resources, and may be needed to inform the available 
quantities and ease of access to specific materials, if any of 
these mineral distribution strategies are deemed to be 
scientifically plausible. In addition, if climate engineering 
were ultimately deployed, the USGS would be needed to monitor 
program impacts on natural resources. The USGS maintains a 
commitment to scientific integrity and the sharing of 
information freely with the public.\40\ Objective and 
transparent science will be especially critical for identifying 
and analyzing negative and unintended consequences on 
ecosystems that may emerge if climate engineering is deployed.
---------------------------------------------------------------------------
    \40\ U.S. Geological Survey, Fundamental Science Practices (2006). 
Available at <http://www.usgs.gov/usgs-manual/500/502-1.html>.
---------------------------------------------------------------------------
    The U.S. Department of State is the best equipped federal 
body to facilitate an international forum for guiding research 
and regulation and pursuing intergovernmental consensuses as 
the discipline develops. The State Department coordinates 
cooperative research between the United States and other 
nations, represents the U.S. in international climate 
negotiations, and also acts as the official point of contact to 
the Intergovernmental Panel on Climate Change (IPCC). 
Furthermore, the United States Agency for International 
Development (USAID), a division of the State Department, 
contributes funding to the U.S. Global Change Research Program 
(USGCRP). While basic research activities within U.S. federal 
agencies may not require participation from the State 
Department, the potential impacts of climate engineering are 
necessarily international in scale. Those strategies that would 
result in trans-boundary impacts, such as changes in monsoon 
patterns and sunlight availability, would necessitate 
international coordination and governance at an early stage. If 
the United States were to formalize research activities on 
climate engineering, complementary international discussions on 
regulatory frameworks would be required.

ORGANIZATIONAL MODELS

    As noted above, there is growing consensus that a 
comprehensive climate engineering research strategy would 
require the engagement of a wide range of disciplines, and 
would likely call for an interagency initiative to coordinate 
research activities and findings. Several models and lessons on 
interagency coordination are profiled below. However, any 
attempt to field test or deploy large scale climate engineering 
would likely require coordination at far greater scales and 
with international partners.

         ``In my opinion before a nation (or the world) ever decided to 
        deploy a full-scale geoengineering project . . . it would 
        require an enormous activity, equivalent to that presently 
        occurring within the modeling and assessment activities 
        associated with the Intergovernmental Panel on Climate Change 
        (IPCC) activities, or a Manhattan Project, or both. It would 
        involve hundreds or thousands of scientists and engineers and 
        require the involvement of politicians, ethicists, social 
        scientists, and possibly the military.''

           --Dr. Philip Rasch, Geoengineering II: The Scientific Basis 
        and Engineering Challenges (written hearing testimony) (2010).

Council on Environmental Quality

    The White House Council on Environmental Quality (CEQ) 
coordinates Federal environmental efforts and works closely 
with agencies and other White House offices in the development 
of environmental policies and initiatives. The Council's 
Chairman also serves as the principal environmental advisor to 
the President. CEQ provides recommendations on comprehensive 
national environmental strategies to the President on specific 
issues, such as carbon capture and storage, Gulf Coast 
ecosystem restoration, and climate change adaptation. The CEQ 
also has a unique capacity to engage a range of stakeholders 
and balance the competing interests among federal agencies and 
state and local governments.
    In pursuit of environmental goals on specific topics, CEQ 
may establish a task force and other comprehensive, interagency 
initiatives, when appropriate. For example, in June 2009 the 
President distributed a memorandum to the leaders of executive 
departments and federal agencies establishing an Interagency 
Ocean Policy Task force, to be led by CEQ. This Task Force is 
charged with developing recommendations over several government 
agencies on how to enhance ocean stewardship and resource use. 
The Task Force has since released interim reports, containing 
recommendations on ocean governance and interagency 
coordination, and received comments from a wide variety of 
stakeholders. As the national and international discussion 
advances, it may be helpful for CEQ to explore options for a 
similarly-structured body that will provide a forum for 
stakeholder input and early, foundational coordination between 
agencies.

Office of Science and Technology Policy

    The White House Office of Science and Technology Policy 
(OSTP), established in 1976, advises the President on broad 
science and technology issues, provides scientific assessments 
to inform Executive Branch policies, and coordinates scientific 
and technical work within the Executive Branch. In order to 
accomplish this broad mission, OSTP often hosts public and 
private sector summits, issues reports, coordinates activities 
within existing Committees and interagency bodies, and 
publicizes work conducted by federal bodies. OSTP is divided 
into four divisions--Science, Technology, Energy & Environment, 
and National Security & International Affairs--each of which 
could be instrumental in coordinating early-stage climate 
engineering research. Two initiatives under OSTP in the last 
few years may be useful models for structuring a federal 
research program. The National Nanotechnology Initiative, 
profiled below, and the Networking Information Technology 
Research and Development (NITR-D) program are both of examples 
of interagency entities established to address complex and 
interdisciplinary emerging technologies.
    The OSTP also serves as co-chair of the President's Council 
of Advisors on Science and Technology (PCAST), a council of 
independent experts that provide advice to the President. 
Established in 2001, PCAST consists of 35 individuals drawn 
from industry, academia, and other nongovernment organizations, 
as well as the Director of the OSTP. The Council receives 
information from the private and academic sectors on a variety 
of issues in science and technology and prepares 
recommendations on specific topics, most often at the 
President's request. While its efficacy and influence is 
somewhat fluid and may change over different Presidential 
administrations, PCAST has experience guiding policy on nascent 
technologies. PCAST may be needed to provide the President with 
reliable and independent assessments of how federal policy 
should best regulate climate engineering research.

U.S. Global Change Research Program

    The U.S. Global Change Research Program (USGCRP), initiated 
in 1989 and mandated by Congress in 1990, coordinates and 
integrates federal research on changes in the global 
environment and impacts on the public.\41\ The program is 
managed by the Committee on Environment and Natural Resources 
under OSTP. Thirteen federal departments and agencies 
participate in USGCRP, with the biggest contributions coming 
from DOE, NOAA, NASA and NSF. USGCRP's mission is to improve 
knowledge of earth's climate, environment, and natural and 
anthropogenic variability; to better understand the forces of 
change in earth's climate and related systems; to predict and 
reduce uncertainty in projections for climate change in the 
future; understand the sensitivity and adaptability of 
ecosystems and human systems to global change; and manage risks 
and opportunities related to global change. To support these 
goals the participating agencies coordinate their activities 
through ten Interagency Working Groups that address specific 
challenges of climate change. The multi-disciplinary, 
coordinated structure of the USGCRP makes it an appropriate 
model for, and possible steward of, climate engineering 
research.
---------------------------------------------------------------------------
    \41\ Global Change Research Act, 15 U.S.C. Sec.  2931 et seq. The 
USGCRP was known as the U.S. Climate Change Science Program (CCSP) 
between 2002 and 2008. Interagency climate research and technology 
activities have undergone several iterations over the last two years. 
See generally Michael Simpson & John Justus, Climate Change: Federal 
Expenditures for Science and Technology (U.S. Congressional Research 
Service) (2005).
---------------------------------------------------------------------------
    One proposal for incorporating climate engineering into 
USGCRP's jurisdiction includes the creation of one or more new 
working groups exclusively focused on the strategies not 
otherwise informed by existing USGCRP activities. Another 
proposal is to accommodate climate engineering within existing 
working groups according to the key research needs associated 
with particular strategies. However, it has been noted that an 
evaluation of USGCRP's successes and challenges would be needed 
before attempting to incorporate another large, comprehensive 
agenda into this program. There has been some concern that 
introducing climate engineering into USGCRP's jurisdiction 
would draw resources and attention away from the primary 
Program mission of understanding, assessing, predicting and 
responding to climate change through mitigation and adaptation 
programs. However, it appears that a comprehensive interagency 
research agenda on climate engineering would call for 
participation from the same agencies in the USGCRP and would 
likely be managed under a similar structure.

U.S. Group on Earth Observations

    The U.S. Group on Earth Observations (USGEO) is charged 
with developing, coordinating, and managing an integrated U.S. 
earth-observation system through ground, airborne, and 
satellite measurements. The group was established in 2005 under 
the National Science and Technology Council's Committee on 
Environment, Natural Resources, and Sustainability within the 
OSTP. USGEO is made up of representatives from 17 federal 
agencies with a role in earth observations,\42\ and is co-
chaired by representatives of OSTP, NOAA, and NASA. USGEO also 
supports the Global Earth Observation System of Systems 
(GEOSS), an international effort to share environmental data to 
support decision-making in nine societal benefit areas. The 
goal of this initiative is to provide the overall conceptual 
framework needed to move toward globally-integrated earth 
observations. By 2009, seventy-nine countries, the European 
Commission and several dozen international organizations had 
joined the GEOSS, which will deliver detailed and verifiable 
climate data at local, regional, and global scales.
---------------------------------------------------------------------------
    \42\ USGEO is comprised of all the agencies including the USGCRP, 
the Department of Homeland Security (DHS), Centers for Disease Control 
and Prevention (CDC), the Office of Management and Budget (OMB), and 
OSTP.
---------------------------------------------------------------------------
    In several recent reports on the state of U.S. satellite 
systems, GAO identified some challenges for USGEO \43\--namely, 
that its required Strategic Assessment Report on opportunities 
and priorities for space observation has not yet been approved 
by the USGEO managers in OSTP, and as of July 2010 had not 
scheduled a date for releasing the final Report. The GAO 
expressed concern that the draft version of this report did not 
address costs, schedules or plans for long-term satellite data 
needs, and that even once the Strategic Report is finalized, it 
is not clear how the OSTP and Office of Management and Budget 
(OMB) will ensure the interagency strategy is consistent with 
the individual agencies' plans and budgets. These difficulties 
demonstrate that coordinating data sources between federal 
agencies, not to mention between several nations, requires 
careful planning and execution. Any successful inter-agency 
effort will require open and frequent communication, effective 
leadership, and a clear delineation of responsibilities.
---------------------------------------------------------------------------
    \43\ See U.S. Government Accountability Office, Environmental 
Satellites: Planning Required to Mitigate Near-Term Risks and Ensure 
Long-Term Continuity (Publication No. GAO-10-858T) (2010) and U.S. 
Government Accountability Office, Environmental Satellites: Strategy 
Needed to Sustain Critical Climate and Space Weather Measurements 
(Publication No. GAO-10-456) (2010).

National Nanotechnology Initiative

    The United States' experience with nanotechnology research 
across federal agencies can provide valuable insight into a 
potential federal, interagency research initiative on climate 
engineering. Nanotechnology, the collective term for nano-scale 
science and technology applications, is a nascent field that is 
rapidly attracting public interest and investment around the 
world. In 2000, President Clinton launched the National 
Nanotechnology Initiative (NNI) to coordinate federal research 
and development on nanotechnology, and in 2003, Congress 
enacted the 21st Century Nanotechnology Research and 
Development Act \44\ to provide a statutory foundation and 
organize the Initiative. The America COMPETES Reauthorization 
Act of 2010, which contains a number of amendments to NNI, was 
approved by the House in May 2010.\45\
---------------------------------------------------------------------------
    \44\ Sec.  15 U.S.C. Sec.  7501 et seq.
    \45\ H.R. 5116, 111th Cong. (2010). Also see H. Rep. No. 111-478.
---------------------------------------------------------------------------
    While nanotechnology may eventually contribute 
revolutionary advances to any number of public goods, concerns 
have been raised about the potential negative impacts of 
nanotechnologies on human health and the environment.\46\ For 
example, it has been proposed that the small size of nanoscale 
particles could allow them to penetrate and damage human 
organs, such as the lungs. In its June 2, 2010 report the 
Congressional Research Service (CRS) observed that public 
attitudes and perception of risks leaves the still-nascent 
nanotechnology industry and research community vulnerable to a 
negative event, such as an accidental or harmful release.
---------------------------------------------------------------------------
    \46\ See John F. Sargent Jr., Nanotechnology: A Policy Primer (U.S. 
Congressional Research Service) (2010).
---------------------------------------------------------------------------
    The NNI is comprised of thirteen federal agencies that 
conduct nanotechnology research and development and another 
twelve that would regulate and enable education and training on 
nanotechnology. In addition to conducting research and 
exploring regulatory issues related to the environmental, 
health and safety issues, the NNI also conducts public outreach 
activities through written materials, public meetings, a 
comprehensive website, and other educational resources to the 
public. NNI agencies also engage with international consortia 
such as the Organization for Economic Cooperation and 
Development (OECD) to address nano-safety issues. By 
recognizing that risks and impacts of nanotechnology must be 
better understood by key stakeholders, and that public 
acceptance is critical to realizing the full benefits it may 
ultimately bring to bear, NNI can serve as a model for what 
might be needed if climate engineering research is undertaken 
at the federal level.
    It should also be noted that NNI has had an immense impact 
on global interest in nanotechnology. Before the U.S. initiated 
the NNI, nanotechnology research worldwide was generally 
piecemeal and modest. Since the establishment of NNI, over 
sixty countries have initiated government-led nanotechnology 
programs. While a heightened profile for technology development 
and commercialization has been a positive development for 
nanotechnology, increased interest in climate engineering may 
introduce new risks, such as the possibility of unilateral 
deployment. The existence of a dedicated research program on 
the part of the U.S. or its partners might serve to legitimize 
efforts by other nations to act on their own.
    Lastly, the NNI has had to address the fundamental question 
of what is included in the category of nanotechnology. 
Initially, federal agencies were unclear about what activities 
should be reported as nanotechnology, and which would instead 
qualify as chemistry or materials science research. The Office 
of Management and Budget identified explicit criteria on 
nanotechnology for the purposes of quantify funding levels for 
research. International standards for nanotechnology also 
continue to evolve; for five years the International Standards 
Organization has been working to identify core parameters. 
Climate engineering would be faced with a similar challenge. 
There is no clear consensus as to which strategies constitute 
climate engineering, and for what purposes the category must be 
defined. For instance, for the purpose of developing 
regulations and restrictions, the term could be used to apply 
to a smaller set of higher-risk strategies than might otherwise 
be included for the purpose of developing a broad interagency 
research effort. If research were initiated and coordinated at 
the federal level, a more consistent vocabulary that takes into 
consideration the gaps in funding, research, risk assessment, 
and governance would be required.

National Academy of Public Administration

    The National Academy of Public Administration (NAPA) is a 
non-profit and non-partisan coalition of management and 
organizational experts chartered by Congress to improve the 
effectiveness of public programs. NAPA was established in 1967 
and advises federal agencies, Congress, state and local 
governments, academia, and various foundations on how to manage 
the structure, administration, operation and performance of 
existing programs and helps identify potential emerging 
management challenges. NAPA also assesses the proposed 
effectiveness, structure, administration, and implications for 
proposed public programs, policies, and processes and 
recommends specific changes to improve the proposed program. 
The NAPA coalition of experts is comprised of several hundred 
Fellows with robust and varied management experience, including 
former members of Congress, governors and mayors, business 
executives, foundation executives, and academia.
    NAPA carries out activities both at its own discretion and 
by Congressional request. For example, NAPA recently completed 
a congressionally mandated study \47\ on structuring a NOAA 
Climate Service.\48\ A Climate Service would coordinate and 
distribute climate change information gleaned from a variety of 
research programs and monitoring systems to aid the public and 
local, state, and federal decision makers. While the overall 
goal of a NOAA Climate Service is very different than a 
potential coordinated climate engineering research strategy, 
the two would share a number of key objectives and challenges. 
Both must gather information and expertise from a wide range of 
sources and organize and disseminate it in a consistent and 
usable format and both must leverage specific program office 
strengths and ensure stakeholder communication. NAPA has 
explored these topics in great detail, as well as how private, 
university, and non-governmental organizations might contribute 
to data holdings and communication efforts, how the proposed 
NOAA Climate Service would help support public understanding 
and inter-user dialogue, and how to increase usability of 
existing climate data. With its established format for 
exploring these considerations, as well as a robust body of 
work consisting of other relevant independent projects and 
publications, NAPA may be needed to study in greater depth the 
potential organizational tools and other useful model programs 
that could support and inform a climate engineering program.
---------------------------------------------------------------------------
    \47\ H. Rep. Nos. 111-366 of P.L. 111-117 (2009).
    \48\ See Expanding Climate Services at the National Oceanic and 
Atmospheric Administration (NOAA): Developing the National Climate 
Service Hearing Before the House of Representatives Committee on 
Science and Technology, 111th Cong. (2009) (Hearing Charter).

---------------------------------------------------------------------------
GENERAL FINDINGS AND RECOMMENDATIONS

Immediacy

    In The Regulation of Geoengineering report, the U.K. 
Committee recommended that serious consideration of the 
regulatory frameworks for climate engineering technologies 
start now, and not be delayed until either highly disruptive 
effects of climate change are observed or deployment of a 
climate engineering scheme is underway. Similarly, a robust 
understanding of the potential environmental impacts will be 
needed in advance of a ``climate emergency'' so that the most 
effective and risk-averse strategies are well understood. It is 
the opinion of the Chair that broad consideration of 
comprehensive and multi-disciplinary climate engineering 
research at the federal level begin as soon as possible in 
order to ensure scientific preparedness for future climate 
events.

Defining Climate Engineering

    At this time, the definitional boundaries between some 
climate engineering strategies and traditional mitigation 
remain unclear. It is generally agreed that ``climate 
engineering'' or ``geoengineering'' implies a willful intent to 
produce meaningful impacts on the global climate.\49\ In 
contrast, while human activities have already greatly impacted 
our global climate, they were not undertaken for that express 
purpose. However, what remains unclear is how activities should 
be distinguished from traditional mitigation and adaptation, 
and at what scale of application they amount to ``climate 
engineering.'' Many of these activities are already being 
undertaken at smaller scales, whether or not for the express 
goal of reflecting solar radiation or absorbing greenhouse 
gases. For example, reforestation in pursuit of environmental 
and public goods, other than carbon management, has existed for 
hundreds of years. Some experts argue that CDR strategies 
should not be designated as climate engineering because, like 
traditional mitigation, they seek to manage climate change by 
reducing atmospheric concentrations of greenhouse gases. Still 
others argue that CDR does belong in the category of climate 
engineering as it distracts from the primary goal of mitigation 
through emissions reductions. As climate engineering will 
likely remain a controversial topic, the designation itself may 
provoke a negative public opinion or even inappropriately 
strict regulation on relatively low-risk strategies. A 
moratorium on all climate engineering ``activities,'' for 
example, without an adequate scientific basis for what specific 
strategies and at what scales fall under this definition, could 
effectively ban low-risk and commonplace activities such as 
small-scale afforestation.
---------------------------------------------------------------------------
    \49\ Innovative Energy Strategies for CO<INF>2</INF> Stabilization 
p.412 (Robert G. Watts, ed., Cambridge University Press) (2002).
---------------------------------------------------------------------------
    Furthermore, uncertainty about what research activities 
fall under the climate engineering umbrella may create 
challenges for agencies, Congress, and the Office of Management 
and Budget (OMB) in determining appropriate funding levels for 
these activities. When the United States first began to 
coordinate federal work on nanoscience and explore the 
aggregate of existing federal research, agencies were uncertain 
as to which activities could be classified as nanotechnology, 
and would often report their nano-scale research activities as 
materials science or basic chemistry. Only after OMB 
established explicit guidelines for what might fall under the 
umbrella of ``nanotechnology'' was there a clearer picture of 
existing capacities in the federal agencies. Certainly if 
climate engineering research is formally authorized by the 
federal government, a more certain definition will be required 
to help U.S. agencies, and ultimately the international 
community, identify their relevant research activities. The 
GAO's efforts to quantify existing federal efforts in its 
October 2010 report provide a useful foundation for this 
process.
    At this time, a consistent and comprehensive definition of 
climate engineering may not be feasible. For the purposes of 
organizing research, potential strategies should be considered 
on a case-by-case basis, accommodating the political, 
environmental, and social risks associated with them. 
Furthermore, as noted earlier and used throughout this report, 
the term ``climate engineering'' is a more appropriate tool for 
communicating the concept to policymakers and the public than 
``geoengineering.'' It is the opinion of the Chair that there 
must ultimately be an international consensus on climate 
engineering terminology that will best communicate the 
strategies and desired effects to the scientific community, 
policy makers, and the public.
    In addition, there has been considerable discussion as to 
whether techniques designed for the purposes of altering 
specific weather event, rather than the larger climate, should 
fall under the definition of climate engineering. The express 
goal of weather modification techniques, such as cloud seeding, 
is to impact weather patterns, such as hurricane intensity and 
precipitation, on a geographically limited scale and with 
little or no lasting effectiveness. It is the opinion of the 
Chair, and in agreement with the U.K. Committee,\50\ that 
weather modification techniques such as cloud seeding should 
not be included within the definition of climate engineering.
---------------------------------------------------------------------------
    \50\ Science and Technology Committee, United Kingdom House of 
Commons, The Regulation of Geoengineering p.16 (Stationery Office 
Limited) (2010).

Defining a ``Climate Emergency''

    As previously noted, it is the opinion of the Chair that 
some SRM strategies such as stratospheric injections, if proven 
viable, should be reserved as an option of last resort to be 
used only in the case of a ``climate emergency,'' and when 
other options have been exhausted. The majority of stakeholders 
appear to agree that climate engineering should not be 
considered an alternative to stringent emissions reductions, 
and, if deployed, SRM should be used only as a temporary 
measure. Experts predict that large-scale SRM methods, if 
prepared in advance, could be deployed very quickly and would 
exert a nearly immediate impact on global albedo. However, as 
the National Research Council notes in its report America's 
Climate Choices: Advancing the Science of Climate Change, if 
the intended strategy is to withhold SRM until a dangerous 
tipping point is imminent, there must be some collective 
understanding of what constitutes such a tipping point ahead of 
time. At this time there is no consensus on what events would 
constitute a ``climate emergency,'' and there is much to 
consider about the complexity of the climate system, the 
potentially long timescales over which an emergency might 
occur, and the global tolerance of climate changes in defining 
the term.\51\ Furthermore, because the impacts of climate 
engineering are not yet well-understood, it is not clear how a 
particular strategy might be used to offset specific impacts if 
a climate emergency did arise.\52\ It is the opinion of the 
Chair that the global climate science and policy communities 
should work towards a consensus on what constitutes a ``climate 
emergency'' warranting deployment of SRM technologies.
---------------------------------------------------------------------------
    \51\ Division on Earth and Life Sciences, National Research 
Council, America's Climate Choices: Advancing the Science of Climate 
Change p.299 (National Academies Press) (2010).
    \52\ David Victor, et al., The Geoengineering Option: A Last Resort 
Against Global Warming?, March/April Foreign Affairs p.5 (2009).

Categories of Climate Engineering

    In The Regulation of Geoengineering,\53\ the U.K. Committee 
recommended that because climate engineering as currently 
defined covers such a broad range of CDR and SRM technologies 
and techniques, any regulatory framework for climate 
engineering cannot be uniform. Similarly, the associated 
research needs vary greatly among the different suggested 
strategies. While general climate science information today 
could likely inform all climate engineering strategies, the 
anticipated ecological impacts and scientific basis for a 
particular strategy would require a unique and focused set of 
research priorities. Many CDR activities, for example, have a 
sizable scientific foundation from related research activities, 
while SRM has not been tested at any meaningful scale in the 
field or in a laboratory. The divergent and unique research 
needs for CDR and SRM must be accounted for when research 
activities are authorized in various federal agencies and 
program offices.
---------------------------------------------------------------------------
    \53\ Science and Technology Committee, United Kingdom House of 
Commons, The Regulation of Geoengineering p.16 (Stationery Office 
Limited) (2010).

         ``[A] solar radiation management (SRM) R&D program should be 
        organized separately from the air capture (AC) R&D program. 
        Exploring SRM entails tasks that differ from those needed to 
        explore AC. Disparate tasks demand disparate skills. Also, if 
        research on AC were ever to be successful it might well devolve 
        to the private sector; whereas, SRM is likely to remain under 
        direct government control. Yoking together two such different 
---------------------------------------------------------------------------
        efforts would be certain to impede the progress of both.''

           --Mr. Lee Lane, Geoengineering: Assessing the Implications 
        of Large-Scale Climate Intervention (responses to questions for 
        the record) (2009).

Geographically Localized Climate Engineering

    Several witnesses and outside academic experts have 
explored the possibility of climate engineering to address only 
geographically specific areas. This strategy is intended to 
protect specific environmental features that are particularly 
sensitive to climate change and/or pivotal elements of global 
sustainability. It has been suggested that localized climate 
engineering could offer more ``bang for the buck,'' requiring a 
smaller, somewhat more controlled scale operation to produce 
appreciable positive impacts.

         Isolating the Ice Caps?  The impacts of climate change on the 
        polar ice caps is of great concern, not only because melting 
        will contribute to major sea level rises, threatening low-
        altitude coastal communities, but because the ice contains vast 
        stores of frozen methane, a potent greenhouse gas. Melting 
        could cause the release of huge quantities of methane, warming 
        the climate further and encouraging dangerous feedback loops. 
        Some scientists have suggested that SRM could be somewhat 
        localized to help protect polar ice and to prevent such 
        feedback loops.

    However, as Dr. Shepherd of the Royal Society noted, ``It 
would . . . be generally undesirable to attempt to localize SRM 
methods, because any localized radiative forcing would need to 
be proportionally larger to achieve the same global effect, and 
this is likely to induce modifications to normal spatial 
patterns of weather systems including winds, clouds, 
precipitation and ocean currents and upwelling patterns.'' \54\
---------------------------------------------------------------------------
    \54\ Staff of House of Representatives Committee on Science and 
Technology, 111th Cong., Report on Geoengineering: Assessing the 
Implications of a Large Scale Climate Intervention Hearing (Comm. Print 
2009).
---------------------------------------------------------------------------
    At this time there is no consensus on the likelihood that 
geographically localized applications would work as desired and 
without unacceptable secondary consequences. However, models 
have suggested that while the global ecosystem is highly 
interconnected and no large-scale intervention can be isolated, 
the desired and unanticipated impacts of some strategies would 
be maximized at the location in which they are deployed.\55\ 
Therefore, it is the opinion of the Chair that a climate 
engineering research program should explore the unique range of 
possibilities and risks associated with geographically 
localized climate engineering. Furthermore, any proposed 
application of climate engineering to protect polar ice 
specifically should be reviewed by the Arctic Council, an 
intergovernmental forum representing the world's circumpolar 
nations.
---------------------------------------------------------------------------
    \55\ Staff of House of Representatives Committee on Science and 
Technology, 111th Cong., Report on Geoengineering II: The Scientific 
Basis and Engineering Challenges Hearing (Comm. Print 2010).

Space-Based Reflectors

    One suggested climate engineering proposal entails placing 
large-scale sunlight deflectors in space to reduce the amount 
of solar energy reaching the earth. Some suggestions include a 
great number of reflective surfaces, mirrors, or light-colored 
materials, in a near-earth orbit, or a lesser number of 
reflectors positioned at the L-1 point, also referred to as a 
LaGrange point, where the gravitational attractions of the 
earth and sun are equal. Development and deployment costs of 
such strategies are projected to be extremely high, as they 
would require the development of new technologies likely much 
larger in scale and far more complex than any space program 
ever attempted.\56\ For this reason project development and 
deployment is also estimated to take several decades, making it 
an unviable option for rapid deployment in an emergency 
situation. Also, solar applications represent potentially the 
most serious type of the ``termination problem,'' in which the 
intentional or accidental termination of SRM activities could 
result in a rapid and potentially catastrophic increase in 
global temperatures unless strict, congruent controls on 
greenhouse gases had been undertaken while the solar 
applications were in effect. An international team of 
scientists recently reported that space-based reflectors would 
do little to combat rising sea levels, as sea levels respond 
slowly to changes in the earth's atmosphere.\57\ Furthermore, 
like all SRM strategies, space-based reflectors would do 
nothing to address the problem of ocean acidification.
---------------------------------------------------------------------------
    \56\ See John Shepherd et al., Geoengineering the Climate: Science, 
Governance and Uncertainty p.34 (The U.K. Royal Society) (2009).
    \57\ J.C. Moore et al., Efficacy of Geoengineering to Limit 21st 
Century Sea-level Rise, 10.1073/pnas.1008153107, Proceedings of the 
National Academy of Sciences (published online Aug. 23, 2010). 
Available at <http://www.pnas.org/content/107/36/15699>.
---------------------------------------------------------------------------
    In addition, there is considerable agreement among climate 
engineering experts and international policy analysts that 
deployment of space-based reflectors would introduce an 
extremely precipitous geopolitical scenario. Space-based 
applications would likely have considerable impacts on all 
earth systems, including effects on precipitation patterns and 
agricultural yields. However, the system would likely be 
controlled by a single, technologically-sophisticated group. In 
such a scenario a host of legal issues would arise regarding 
the negative environmental changes caused, or perceived to be 
caused, by the reflectors.\58\ This scenario would complicate 
both public acceptance and international agreement on how such 
a project should be undertaken, and run counter to the U.K. and 
U.S. Committees' objectives of forming sufficient international 
consensus and giving equitable consideration to third world 
interests. Therefore, it is the opinion of the Chair that due 
to high projected costs, technological infeasibility and 
unacceptable environmental and political risks, the solar 
radiation management (SRM) strategy of space-based mirrors 
should be a low priority consideration for research.
---------------------------------------------------------------------------
    \58\ Claire L. Parkinson, Coming Climate Crisis? Consider the Past, 
Beware the Big Fix (Rowman and Littlefield Publishers, Inc.) (2010).

         Mirrors in Space  ``The space sunshade concept is an 
        unappealing approach to SRM. It offers few benefits that might 
        not be achieved at vastly lower costs with other SRM 
        techniques, and the very large up-front infrastructure costs 
        would simply be so much waste if the project were to be fail or 
---------------------------------------------------------------------------
        be abandoned for any reason.''

           --Dr. Lee Lane, Geoengineering: Assessing the Implications 
        of Large-Scale Climate Intervention (responses to questions for 
        the record) (2009).

Desert-Based Reflectors

    Another proposal is to cover large spans of desert with 
white or reflective materials to greatly increase the local 
albedo, therefore decreasing the overall global solar intake. 
Its proponents would argue that landforms unsuited to 
agriculture or human inhabitance may be suitable for SRM. 
However, as the Royal Society noted in its report, this 
strategy would certainly conflict with other desirable land 
uses and may cause great ecological damage to the desert 
ecosystem. Furthermore, as the application itself would be 
highly localized, some of the unintended effects would also be 
highly localized, causing potentially severe changes in 
atmospheric circulation and precipitation patterns. Each of the 
expert witnesses appearing before the Committee that addressed 
this proposal expressed significant doubts about the potential 
merits and technological feasibility of such a policy. As Dr. 
Robert Jackson noted in his responses to Committee questions:

        L``This suggestion [of desert-based reflectors] strikes 
        me as a poor idea, environmentally and scientifically. 
        Deserts are unique ecosystems with a diverse array of 
        life. They are not a wasteland to be covered over and 
        forgotten. Based on the best science available, I 
        believe that placing reflective shields over desert . . 
        . is likely to be both unsustainable and harmful to 
        native species and ecosystems. Take as one example the 
        suggestion to use a reflective polyethylene-aluminum 
        surface. This shield would alter almost every 
        fundamental aspect of the native habitat, from the 
        amount of sunlight received (by definition) to the way 
        that rainfall reaches the ground. Implemented over the 
        millions of acres required to make a difference to 
        climate, such a shield could also alter cloud cover, 
        weather, and many other important factors.'' \59\
---------------------------------------------------------------------------
    \59\ Staff of House of Representatives Committee on Science and 
Technology, 111th Cong., Report on Geoengineering II: The Scientific 
Basis and Engineering Challenges Hearing (Comm. Print 2010).

    Therefore it is the opinion of the Chair that due to wide 
array of potentially harmful impacts on ecosystems, such as 
water cycles and wildlife, the solar radiation management (SRM) 
strategy of desert-based reflectors should be a low priority 
---------------------------------------------------------------------------
consideration for research.

International Collaboration

    International collaboration on climate engineering is key. 
The U.S. Science and Technology Committee began its 
consideration of climate engineering upon meeting with the 
then-Chair of the U.K. Science and Technology Committee, MP 
Phil Willis, in April 2009. Chair Willis and Chairman Gordon 
agreed to work together on a joint inquiry into climate 
engineering, and each Committee initiated public hearings to 
establish a public record through expert testimony on the 
subject. The U.K. Committee published a comprehensive report on 
its findings on March 18, 2010.

    It is the opinion of the Chair, in agreement with U.K. 
Committee,\60\ that further collaborative work between national 
legislatures on topics with international reach, such as 
climate engineering, should be pursued. The Chair also agrees 
that there are a range of measures that could be taken to 
streamline the process and enhance the effectiveness of 
collaboration.
---------------------------------------------------------------------------
    \60\ Science and Technology Committee, United Kingdom House of 
Commons, The Regulation of Geoengineering p.47 (Stationery Office 
Limited) (2010).

    It is the opinion of the Chair, in agreement with the U.K. 
Committee,\61\ that the U.S. Government should press for an 
international database of climate engineering research to 
encourage and facilitate transparency and open publication of 
results.
---------------------------------------------------------------------------
    \61\ Id. at p.32.

    It is the opinion of the Chair that others topics such as 
synthetic biology, nanotechnology, and strategic raw materials 
may be of international significance and mutual interest to the 
U.S. and U.K. committees, and that these topics may be 
appropriate for bilateral or multilateral collaboration in the 
---------------------------------------------------------------------------
future.

    It is the opinion of the Chair that this joint inquiry 
should serve as a model for future inter-Committee 
collaboration between the U.S. and the U.K. or other inter-
Parliamentary partnerships.

ADDITIONAL SOURCES

Challenges of Our Own Making, 465 Nature p.397 (2010).

Scott Barrett, The Incredible Economics of Geoengineering, 39 
        Environmental and Resource Economics p.45 (2008).

J.J. Blackstock et al., Climate Engineering Responses to 
        Climate Emergencies (Novim) (2009). Available at 
        <http://arvix/org/pdf/0907.5140>.

J.G. Canadell & M.R. Raupach, Managing forests for climate 
        change mitigation, 320 Science p.1456 (2008).

Ralph J. Cicerone, Geoengineering: Encouraging Research and 
        Overseeing Implementation, 77 Climatic Change p.221 
        (2006).

James R. Fleming, Fixing the Sky: The Checkered History of 
        Weather and Climate Control (Columbia University Press) 
        (2010).

Michael Garstang et al., Committee on the Status of and Future 
        Directions in U.S. Weather Modification Research and 
        Operations, National Research Council, Critical Issues 
        in Weather Modification Research (The National 
        Academies Press) (2003).

P.Y. Groisman, Possible Regional Climate Consequences of the 
        Pinatubo Eruption: An Empirical Approach, 19 
        Geophysical Research Letters p.1603 (1992).

Eli Kintisch, Hack the Planet: Science's Best Hope--or Worst 
        Nightmare--for Averting Climate Catastrophe (John Wiley 
        & Sons, Inc.) (2010).

Richard Lattanzio & Emily Barbour, Memorandum Regarding 
        International Governance of Geoengineering (U.S. 
        Congressional Research Service) (2010).

Michael C. MacCracken, Geoengineering: Getting a Start on a 
        Possible Insurance Policy, International Seminar on 
        Nuclear War and Planetary Emergencies--40th Session 
        p.747 (2008).

Colin Macilwain, Talking the Talk: Without Effective Public 
        Engagement, There Will Be No Synthetic biology in 
        Europe, 465 Nature p.867 (2010).

Daniel M. Murphy, Effect of Stratospheric Aerosols on Direct 
        Sunlight and Implications for Concentrating Solar 
        Power, 43 Environmental Science and Technology p.2784 
        (2009).

National Aeronautics and Space Administration, Responding to 
        the Challenge of Climate and Environmental Change: 
        NASA's Plan for a Climate-Centric Architecture for 
        Earth Observations and Applications from Space (2010).

National Aeronautics and Space Administration, NASA Fiscal Year 
        2011 Budget Estimates (2010).

National Environmental Research Council, Experiment Earth? 
        Report on a Public Dialogue on Geoengineering (Ipsos 
        Mori Publications) (2010). Available at <http://
        www.ipsosmori.com/researchpublications/publications/
        publication.aspx?oItemId=1376>.

Alan Robock, 20 Reasons Why Geoengineering May Be a Bad Idea, 
        May/June Bulletin of the Atomic Scientists (2008).

U.S. Environmental Protection Agency, Report of the Interagency 
        Task Force on Carbon Capture and Storage (2010). 
        Available at <http://www.epa.gov/climatechange/
        downloads/CCS-Task-Force-Report-2010.pdf>.

U.S. Government Accountability Office, Polar-Orbiting 
        Environmental Satellites: Agencies Must Act Quickly to 
        Address Risks that Jeopardize the Continuity of Weather 
        and Climate Data (Publication No. GAO 10-558) (2010).

T.M.L. Wigley, A Combined Mitigation/Geoengineering Approach to 
        Climate Change, 314 Science p.452 (2006).


                               Appendix:

                              ----------                              


              United States-United Kingdom Joint Agreement



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
